APPENDIX

TABLE OF APPENDICES
Appendix A—Tenth Circuit’s Order Denying
Petition for Rehearing
(Aug. 11, 2020) .................................................................. 1a
Appendix B—Tenth Circuit’s Opinion
(May 13, 2020) ................................................................... 3a
Appendix C—District Court’s Order Granting
Motion for Reconsideration
(Jan. 15, 2019) ................................................................. 47a
Appendix D—District Court’s Opinion
(Sept. 18, 2018)................................................................ 57a

-App. 1a-

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

MICHAEL D. ELLIS,
Plaintiff - Appellee,
v.

No. 19-1074
(D.C. No. 1:15-CV00090-LTB-KMT)
(D. Colo.)

LIBERTY LIFE ASSURANCECOMPANY
OF BOSTON, a New
Hampshire corporation,
Defendant - Appellant.
ORDER
Before HARTZ and EID, Circuit Judges.
Appellee’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to
all of the judges of the court who are in regular active service. As no member of the panel and no judge in regular

-App. 2aactive service on the court requested that the court be
polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

-App. 3a-

APPENDIX B
UNITED STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT
MICHAEL D. ELLIS,
Plaintiff - Appellee,
No. 19-1074

v.
LIBERTY LIFE ASSURANCE
COMPANY OF BOSTON, a New
Hampshire corporation,
Defendant - Appellant.

Appeal from the United States District Court for
the District of Colorado
(D.C. No. 1:15-CV-00090-LTB-KMT)

Byrne J. Decker, Ogletree, Deakins, Nash, Smoak &
Stewart, P.C., Portland, Maine (Kristina N. Holmstrom
(Ogletree, Deakins, Nash, Smoak & Stewart, P.C., Phoenix, AZ on the briefs) for Defendant-Appellant.
Shawn McDermott, McDermott Law, LLC, Denver,
Colorado (Timothy Garvey, McDermott Law, LLC,

-App. 4aDenver, Colorado on the briefs) for Plaintiff-Appellee.

Before HARTZ and EID, Circuit Judges.*

HARTZ, Circuit Judge.

In 2014, Liberty Life Assurance Company of Boston
rejected the claim for long- term disability benefits by Michael Ellis. As part of its employee-benefit plan, Comcast
Corporation, for whom Ellis worked in Colorado from
1994 until 2012, had obtained from Liberty in 2005 a Group
Disability Income Policy (the Policy). Ellis sought review
of Liberty’s denial of benefits in the United States District
Court for the District of Colorado under the Employee
Retirement Income Security Act of 1974 (ERISA),
29 U.S.C. §§ 1001 et seq. The district court, reviewing the
denial de novo, ruled that Liberty’s denial was not supported by a preponderance of the evidence. Liberty
appeals. It contends that the court should have reviewed
its decision under an abuse-of-discretion standard but that
it should prevail even under a de novo standard. Ellis
*

The late Honorable Monroe G. McKay, United States Senior
Circuit Judge, heard oral argument and participated in the panel’s
conference of this appeal, but passed away before its final resolution.
The practice of this court permits the remaining two panel judges, if
in agreement, to act as a quorum in resolving the appeal. See United
States v. Wiles, 106 F.3d 1516, 1516, n* (10th Cir. 1997);
28 U.S.C. § 46(d).

-App. 5adefends the district court’s choice of a de novo standard
but argues he should prevail under either standard of review.
The central issue on appeal is what standard of review
the district court should have applied. A plan administrator’s denial of benefits is ordinarily reviewed by the court
de novo; but if the policy gives the administrator discretion
to interpret the plan and award benefits, judicial review is
for abuse of discretion. See Firestone Tire & Rubber Co.
v. Bruch, 489 U.S. 101, 115 (1989). The Policy provided
that it was governed by the law of Pennsylvania, which is
where Comcast is incorporated and has its principal place
of business. Among its terms was one that gave Liberty
discretion in resolving claims for benefits. A Colorado
statute enacted in 2008, however, forbids such grants of
discretion in insurance policies. The parties dispute both
whether the statute applies to the Policy under Colorado
law and whether Colorado law governs. We hold that in
this dispute the law of Pennsylvania, rather than that of
Colorado, is controlling. The uniformity and administrative-efficiency objectives of ERISA counsel us to adhere
to the Policy’s choice of law. Liberty’s denial of benefits is
therefore properly reviewed for abuse of discretion. Under that standard the denial must be upheld. Exercising
jurisdiction under 28 U.S.C. § 1291, we reverse the decision of the district court.

-App. 6a-

I.

BACKGROUND

A.

The Policy

Under the Policy, employees of Comcast are eligible
for long-term disability benefits upon providing proof of
disability due to injury or sickness and the expiration of an
elimination period of at least six months, subject to proof
of continuing disability and the need for regular attendance of a physician.1 As relevant to the dispute before us,
disability or disabled means that the employee “is unable
to perform, with reasonable continuity, the Material and
Substantial Duties of Any Occupation.” Aplt. App., Vol. II
at 296.

B.

Ellis’s Medical History

On February 1, 2012, while undergoing treatment for
pneumonia, Ellis experienced severe chest pain as a result
of a pulmonary embolism (blood clot in the lungs). He was
administered nitroglycerin, but soon afterwards he had an
abnormally slow heartbeat, followed by an approximately
24-second heart stoppage. He briefly returned to work after this incident, but his last day of employment with
Comcast was February 29, 2012.
1

The Policy language states, in relevant part:

When Liberty receives Proof that a Covered Person is Disabled
due to Injury or Sickness and requires the Regular Attendance of a
physician, Liberty will pay the Covered Person a Monthly Benefit after the end of the Elimination Period, subject to any other provisions
of this policy. The benefit will be paid for the period of Disability if the
Covered Person gives to Liberty Proof of continued:
1.

Disability;

2.

Regular Attendance of a Physician; and

3.

Appropriate Available Treatment. Aplt. App., Vol. II at 309.

-App. 7aEllis submitted a claim for short-term disability benefits, which Liberty approved in March 2012. He reported
“poor concentration, dizziness, slowing of physical and
mental skills” and was referred to a neurologist in June
2012. Aplt. App., Vol. I at 268. The neurologist who began
treating Ellis, Dr. Alan Zacharias, recommended physical
and cognitive therapy but also noted that Ellis had an
“[u]nremarkable brain MRI,” had no evidence of a primary neuromuscular disease, and was alert and attentive.
Id. at 269. Based on this report and documentation from
two other providers, Liberty terminated short-term benefits in July 2012.
In October 2012, Ellis’s lawyer sent a letter to Liberty
asking it to reinstate benefits without a formal appeal.
Part of this submission was a neuropsychological evaluation by Dr. Dennis Helffenstein, whom the lawyer had
asked to evaluate Ellis. He opined that Ellis’s testing
“identified significant cognitive deficits suggesting bilateral frontal and bilateral temporal involvement. The
pattern is consistent with cerebral hypoxia.2 There is absolutely no way Michael could do his job at this time from
a cognitive standpoint.” Aplee. Supp. App., Vol. II at 578.
Liberty reinstated short-term disability benefits through
the maximum duration and advanced the claim for longterm- disability consideration.
To assess Ellis’s eligibility for long-term benefits, Liberty’s claim consultant asked Dr. John Crouch and Dr.
2

According to the National Institute of Neurological Disorders
and Stroke, “[c]erebral hypoxia refers to a condition in which there is
a decrease of oxygen supply to the brain even though there is adequate blood flow.” National Institute of Health, Cerebral Hypoxia
Information Page, https://www.ninds.nih.gov/disorders/all-disorders/cerebral-hypoxia-information-page. Possible causes include
“cardiac arrest.” Id.

-App. 8aGilbert Wager (Liberty’s consulting neuropsychologist
and internal-medicine specialist, respectively) to review
Ellis’s records. The reports from both doctors expressed
doubt that a 24-second heart stoppage could cause cerebral hypoxia or neurological injury. Dr. Wager explained
that “[t]his scenario is unlikely, as permanent neurological
injury is not a feature of an episode of cardiogenic syncope. In general, it takes about 4 minutes or longer of
cerebral anoxia to cause neuronal cell death and permanent neurological damage upon loss of spontaneous
circulation.” Aplt. App., Vol. I at 246.
Dr. Crouch requested Dr. Helffenstein’s raw data to
assess the validity and reliability of Ellis’s claimed cognitive and psychiatric deficits. After receiving the raw data,
Dr. Crouch stated in an addendum to his report that “multiple measures of response bias were administered and
yield[ed] Normal findings, suggesting that [Ellis’s] impairments [were] valid/reliable.” Id. at 187. Liberty also
placed Ellis under surveillance in December 2012; the only
video captured of Ellis revealed him “walking in a slow
pace while utilizing a cane.” Aplee. Supp. App., Vol. II at
482. Liberty approved long-term benefits in April 2013 but
noted that the cause of Ellis’s cognitive impairments was
still unclear.
In May 2013 Liberty requested updated information
from Dr. Dan Hadley, Ellis’s primary-care physician, and
Dr. Zacharias, his neurologist. Dr. Hadley completed a restrictions form stating that Ellis could not work in a
situation requiring more than 10-20 minutes of minimal
concentration. Dr. Zacharias did not specify a work-related restriction and instead signed a restrictions form
directing Liberty to “see neuropsych testing that supports
his impairment.” Aplt. App., Vol. I at 239.
Liberty completed a vocational report in July 2013 that

-App. 9aidentified several alternative occupations fitting Ellis’s
training, education, experience, and physical capacities.
The case manager who completed the report indicated
that she was asked to “presume[] sedentary work capacity, and not to include any cognitive and/or mental
restrictions and limitations.” Aplee. Supp. App., Vol. II at
455. Liberty also had a three- day surveillance conducted
in August 2013, but no clear video of Ellis was obtained.
When Liberty asked Dr. Crouch for an updated clinical review of Ellis’s records, he reported in September
2013 that “based on available information, it is unlikely
that the claimant could perform the job duties of alternate
occupations comparable to his prior job.” Aplt. App., Vol.
I at 189. But he said that an independent neuropsychological reevaluation was warranted if one had not been
recently performed. Dr. Bob Gant, a neuropsychologist,
was retained by an outside vendor at Liberty’s request
and evaluated Ellis in October 2013. He determined that
Ellis’s neuropsychological test results were invalid because of “[c]lear evidence of symptom exaggeration and
suboptimal effort.” Id. at 202. He said:
Mr. Ellis reported an unusual and elevated
degree of neurological complaints which are
likely to be vague and illogical. This was confirmed by other tests utilized during this
examination which indicated that the degree
of neurologic impairment reported by Mr.
Ellis was highly atypical and illogical. Such
a presentation includes symptoms that are
illogical or inconsistent with symptoms of a
bona fide neurologic disorder or they occur
very rarely in neurologically impaired patients.

-App. 10aId. at 203–04. Dr. Gant questioned whether Ellis even
had cognitive impairment:
[W]ithin reasonable medical probability [Ellis] has not suffered cognitive impairment
related to the asystole event which lasted 24
seconds on February 1, 2012. In fact, I am not
certain that the patient suffers from cognitive
impairment. It is likely that elements of secondary gain and/or impairment related to
somatic exaggeration is responsible for [his]
presentation.
Id. at 196.
In November 2013, Dr. Crouch reviewed Dr. Gant’s report and stated that the results from Dr. Gant’s evaluation
“are insufficient to support the presence of valid/reliable”
cognitive impairment. Id. at 194. Dr. Crouch also agreed
that it was “medically impossible for a 24 second asystole
event to cause cerebral hypoxia.” Id. at 194. Liberty terminated Ellis’s disability benefits in December 2013.
Ellis appealed the denial in June 2014. He included as
additional evidence in support of his appeal a March 2014
letter from his speech therapist, letters from the Social
Security Administration from December 2013 declaring
him eligible for disability benefits, and imaging from a Single Photon Emission Completed Tomography (SPECT)
scan together with an assessment report interpreting the
images. The SPECT scan, which shows blood flow and oxygen perfusion to the brain, was interpreted by Dr. S.
Gregory Hipskind, a nuclear neurologist to whom Ellis
had been referred by Dr. Helffenstein. He read the scan
as abnormal—consistent with “a diffuse, toxic/hypoxic encephalopathic process.” Id. at 220. Dr. Helffenstein had
also conducted a second evaluation in May 2014 and his

-App. 11awritten report, completed in July 2014, later supplemented Ellis’s appeal.
The report said that Ellis had demonstrated notable
improvement in his results but had “reached maximum
medical improvement from a neuropsychological standpoint” and was “totally and permanently disabled from
competitive employment.” Id. at 144–45.
In September 2014, Liberty had Dr. Timothy Belliveau, another of its consulting neuropsychologists,
review Ellis’s medical records and neuropsychological
evaluations. Dr. Belliveau opined that the test data from
Dr. Helffenstein’s 2012 exam and Dr. Gant’s 2013 exam
probably indicated symptom over-reporting. Dr. Belliveau
concluded that “[c]onsidered as a whole, and in the context
of the claimant’s documented medical history, the neuropsychological test data provide insufficient support for the
presence of cognitive or psychological impairment due to
a presumed brain injury in February 2012.” Id. at 109. In
light of Dr. Belliveau’s review, Liberty upheld its denial.
ERISA
The Policy is part of an employee-benefits plan governed by ERISA. Such plans may provide a variety of
healthcare, retirement, life-insurance, disability, and
other benefits. Congress enacted ERISA both to “ensure
that employees would receive the benefits they had
earned” and to encourage employers to offer these plans
by “creat[ing] a system that is not so complex that administrative costs, or litigation expenses, unduly discourage
employers from offering ERISA plans in the first place,”
Conkright v. Frommert, 559 U.S. 506, 516–17 (2010)
(brackets and internal quotation marks omitted), and by
providing tax incentives, see Ronald J. Cooke,
1 ERISA Practice and Procedure § 1:3 (2d ed. 2019).

C.

-App. 12aERISA requires every benefit plan to be fully described in written “plan documents” that govern the
management of the plan by plan administrators. See
29 U.S.C. § 1102(a)(1). The documents must “specify the
basis on which payments are made to and from the plan,”
id. § 1102(b)(4), and the plan administrator must act “in
accordance with the documents and instruments governing the plan,” id. § 1104(a)(1)(D); Egelhoff v. Egelhoff ex
rel. Breiner, 532 U.S. 141, 147 (2001). From those documents, employees can “learn their rights and obligations
under the plan at any time.” Curtiss-Wright Corp. v.
Schoonejongen, 514 U.S. 73, 83 (1995).
Plan administrators are subject to federal standards
imposing fiduciary duties. See Miller v. Monumental Life
Ins. Co., 502 F.3d 1245, 1249 (10th Cir. 2007). To avoid plan
administrators having to “master the relevant laws of 50
states and to contend with litigation [that] would undermine the congressional goal of minimiz[ing] the
administrative and financial burden[s] on plan administrators,” Egelhoff, 532 U.S. at 149–50 (internal quotation
marks omitted), ERISA contains a broad preemption provision stating that it “shall supersede any and all State
laws insofar as they may now or hereafter relate to any
employee benefit plan” covered by the statutory scheme,
29 U.S.C. § 1144(a). See Aetna Health v. Davila,
542 U.S. 200, 208 (2004) (“The purpose of ERISA is to provide a uniform regulatory regime over employee benefit
plans”; and its preemption provisions “are intended to ensure that employee benefits regulation would be
exclusively a federal concern.” (internal quotation marks
omitted)); Miller, 502 F.3d at 1249. ERISA is one of the
rare federal statutes recognized as “preempting the field.”
See Nelson v. Great Lakes Educ. Loan Servs., Inc.,
928 F.3d 639, 652 (7th Cir. 2019). Nevertheless, state laws
that regulate insurance, banking, or securities are

-App. 13agenerally exempted from ERISA preemption. See
29 U.S.C. § 1144(b)(2)(A); Ky. Ass’n of Health Plans v.
Miller, 538 U.S. 329, 341–42 (2003). But see Aetna Health,
542 U.S. at 217 (“[E]ven a state law that can be arguably
characterized as ‘regulating insurance’ will be pre-empted
if it provides a separate vehicle to assert a claim for benefits outside of, or in addition to, ERISA’s remedial
scheme.”).
An employee covered by an ERISA-governed benefit
plan who believes the plan administrator wrongfully denied benefits can bring suit in state or federal court. See
29 U.S.C. §§ 1132(a)(1)(B), (e). The plan administrator’s
decision is reviewed by the court de novo unless the terms
of the benefit plan give the administrator discretion to interpret the plan and award benefits. See Firestone Tire,
489 U.S. at 115. The Supreme Court has observed that
granting plan administrators deference in interpreting
plans promotes efficiency by encouraging resolution of
disputes without litigation and promotes predictability “as
an employer can rely on the expertise of the plan administrator rather than worry about unexpected and inaccurate
plan interpretations that might result from de novo judicial review.” Conkright, 559 U.S. at 517.

II.

ANALYSIS

A.

Choice of Law

The principal dispute in this appeal is whether Liberty,
the administrator of Ellis’s ERISA plan, has discretion in
determining whether to award or deny benefits. The Policy states: “Liberty shall possess the authority, in its sole
discretion, to construe the terms of this policy and to determine benefit eligibility hereunder. Liberty’s decisions
regarding construction of the terms of this policy and benefit eligibility shall be conclusive and binding.” Aplt. App.,

-App. 14aVol. II at 329. Ellis does not dispute that the Policy grants
Liberty the requisite discretion. But Colorado law provides:
An insurance policy, insurance contract, or
plan that is issued in this state that offers
health or disability benefits shall not contain a provision purporting to reserve
discretion to the insurer, plan administrator, or claim administrator to interpret the
terms of the policy, contract, or plan or to
determine eligibility for benefits.
C.R.S. § 10-3-1116(2). On the other hand, the Policy
has a choice-of-law provision stating that it is governed by
Pennsylvania law, and Pennsylvania has no statute limiting discretion. Therefore, we must decide whether the
Colorado statute applies to this dispute. We review the
choice-of-law issue de novo. See Boone v. MVM, Inc.,
572 F.3d 809, 811 (10th Cir. 2009).3
The choice-of-law question could be avoided if ERISA
preempts the Colorado statute. Liberty raised preemption
in district court. But several circuits have held that similar
3

Ellis claims that Liberty did not argue the choice-of-law issue
below and therefore essentially conceded that Colorado law applies.
But Ellis was untimely in not raising this concern until oral argument.
See Lenox MacLaren Surgical Corp. v. Medtronic, Inc.,
762 F.3d 1114, 1122–23 n.7 (10th Cir. 2014). And in any event Liberty
did preserve the issue by arguing in its briefing to the district court
that “the Policy expressly provides that [it] is governed by the laws of
the state of Pennsylvania . . . Plaintiff’s Opening Brief does not suggest, nor can it, that Pennsylvania has a statute prohibiting
‘discretionary clauses.’” Aplt. App., Vol. II at 444–45. The district
court clearly thought that Liberty had argued that Pennsylvania law
governed, because it referred to Liberty’s argument in the paragraph
of its opinion devoted to the choice-of-law issue.

-App. 15astatutes are saved from ERISA preemption because they
come within the exception to preemption for laws that regulate insurance. See Orzechowski v. Boeing Co. NonUnion Long-Term Disability Plan, Plan No. 625,
856 F.3d 686, 692–95 (9th Cir. 2017); Fontaine v. Metro.
Life Ins. Co., 800 F.3d 883, 886–89 (7th Cir. 2015); Am.
Council of Life Insurers v. Ross, 558 F.3d 600, 604–07 (6th
Cir. 2009). Perhaps for that reason, Liberty has not pursued the issue on appeal. In any event, there is no need to
resolve that preemption issue here because our analysis
leads to the conclusion that the Colorado statute does not
apply for other reasons.4
Our analysis will proceed as follows: (1) Because Ellis’s
claim for benefits is a federal cause of action, federal law
governs the elements of the claim. (2) But when federal
law is silent on the specific question at issue (here,
whether the Policy’s grant of discretion to Liberty is enforceable), the federal court may incorporate state law
instead of constructing a uniform federal rule. In our view,
the enforceability question should be answered by state
law; that is, federal law should incorporate a state rule of
decision to resolve the question. (3) When federal law incorporates a state rule of decision, the choice of which
state’s law to incorporate is a matter of federal law. (4) As
a matter of federal law, to effectuate ERISA’s goals of uniformity and ease of administration, the law of the State
selected by a choice-of-law provision in the plan documents should ordinarily provide the rule of decision for
claims brought under the plan.
4

Similarly, because we conclude that we must follow Pennsylvania law, we need not address whether the Colorado statute applies to
the Policy—that is, whether the Policy was issued after enactment of
the statute and whether the Policy was issued in Colorado.

-App. 16aFirst, the Supreme Court has made clear that claims
to enforce rights under an ERISA plan, even if styled as
claims under state law, are federal claims. In Metropolitan Life Insurance Co. v. Taylor, the Court declared that
ERISA so “completely pre- empt[ed]” claims within the
scope of § 1132(a) that “any civil complaint raising this select group of claims is necessarily federal in character.”
481 U.S. 58, 63–64 (1987).
Such actions “are to be regarded as arising under the
laws of the United States . . . .” Id. at 65 (internal quotation
marks omitted). The Court concluded that the plaintiff’s
suit seeking only state-law contract and tort remedies for
failure of his employer and the plan administrator to provide benefits in accordance with his ERISA plan was
“necessarily federal in character by virtue of the clearly
manifested intent of Congress.” Id. at 67; see Pilot Life
Ins. Co. v. Dedeaux, 481 U.S. 41, 56 (1987) (stating, in case
where plan participant brought state common-law claim
for tortious breach of contract, that “Congress’ specific
reference to § 301 of the [Labor Management Relations
Act] to describe the civil enforcement scheme of ERISA
makes clear its intention that all suits brought by beneficiaries or participants asserting improper processing of
claims under ERISA-regulated plans be treated as federal questions governed by § [1132](a).”). The federal
character of the ERISA suit is preserved even when (as
will be further discussed below) a state-law rule of decision
is incorporated for resolution of the claim. Thus, in Unum
Life Insurance. Co. v. Ward, 526 U.S. 358, 376–77 (1999),
the Court, holding that the California notice-prejudice
rule was not preempted and should be applied in resolving
a claim under § 1132(a), said, “The notice-prejudice rule
supplied the relevant rule of decision for th[e] § [1132](a)
suit.” In sum, federal law governs the resolution of Ellis’s

-App. 17aclaim.
To say that federal law governs, however, is not to say
that state law is irrelevant. In resolving a federal claim,
questions may arise that cannot be answered by statutory
interpretation. The court then must either adopt a federal
common-law rule of decision or incorporate state law. The
Supreme Court in Kamen v. Kemper Financial Services,
500 U.S. 90, 92 (1991), addressed this matter when it had
to decide in a shareholder- derivative action under the Investment Company Act (ICA) whether to require the
representative shareholder “to make a demand on the
board of directors even when such a demand would be excused as futile under state law.” First, the Court stated
that federal law clearly governs “the contours of the demand requirement in a derivative action founded on the
ICA,” explaining that “[b]ecause the ICA is a federal statute, any common law rule necessary to effectuate a private
cause of action under that statute is necessarily federal in
character.” Id. at 97. That did not mean, however, “that
the content of such a rule must be wholly the product of a
federal court’s own devising.” Id. at 98. On the contrary,
absent a special reason the federal rule of decision should
be state law that is incorporated into the federal remedial
scheme:
Our cases indicate that a court should endeavor to fill the interstices of federal
remedial schemes with uniform federal
rules only when the scheme in question evidences a distinct need for nationwide legal
standards, or when express provisions in
analogous statutory schemes embody congressional policy choices readily applicable
to the matter at hand. Otherwise, we have
indicated that federal courts should

-App. 18aincorporate state law as the federal rule of
decision, unless application of the particular
state law in question would frustrate specific objectives of the federal programs.
Id. at 98 (citations, brackets, and internal quotation marks
omitted). The Court held that a court considering a derivative action under the ICA “must apply the demand
futility exception as it is defined by the law of the State of
incorporation.” Id. at 108–09.
Similarly, in United States v. Kimbell Foods, Inc., the
Court wrote:
Controversies directly affecting the operations of federal programs, although
governed by federal law, do not inevitably
require resort to uniform federal rules.
Whether to adopt state law or to fashion a
nationwide federal rule is a matter of judicial policy dependent upon a variety of
considerations always relevant to the nature of the specific governmental interests
and to the effects upon them of applying
state law.
440 U.S. 715, 727–28 (1979) (citation and internal quotation marks omitted); see Davilla v. Enable Midstream
Partners L.P., 913 F.3d 959, 965–66 (10th Cir. 2017) (incorporating, “as a matter of so-called ‘federal common
law,’” Oklahoma law as rule of decision in federal-law-governed trespass action).
Two Supreme Court opinions will illustrate the process of determining whether the courts should adopt a
uniform federal common-law rule or incorporate a state
rule of decision. Quite recently Rodriguez v. FDIC,
140 S. Ct. 713 (2020), rejected a uniform federal rule (the

-App. 19aBob Richards rule, named for the case that originated it,
In re Bob Richards Chrysler-Plymouth Corp.,
473 F.2d 262 (9th Cir. 1973)), which had been adopted by
several circuit courts for determining how the members of
an affiliated group of corporations that filed a consolidated
tax return are to share a federal tax refund after it is delivered to the group’s designated agent. See id. at 716. The
affiliated group in Rodriguez was just a bank and its corporate parent. See id. Serious problems with the bank
required the Federal Deposit Insurance Corporation
(FDIC) to take it over in receivership. See id. Soon afterwards, the parent entered bankruptcy. See id. In the
parent’s bankruptcy proceedings the FDIC and the trustee for the parent’s bankruptcy estate both claimed a large
federal-income-tax refund that had been issued to the affiliated group. See id. The circuit court applied the Bob
Richards rule. But the Supreme Court said that a uniform
rule was hardly “necessary to protect uniquely federal interests.” Id. at 718 (internal quotation marks omitted). It
recognized that “[t]he federal government may have an interest in regulating how it receives taxes from corporate
groups,” or “in regulating the delivery of any tax refund
due a corporate group,” or it “may wish to ensure that others in the group have no recourse against federal coffers
once it pays the group’s designated agent.” Id. “But what
unique interests could the federal government have in determining how a consolidated corporate tax refund, once
paid to a designated agent, is distributed among group
members?” Id. at 717–18. The Court noted that “corporations are generally creatures of state law and state law is
well- equipped to handle disputes involving corporate
property rights,” and it added that the fact that the controversy arose in the context of “federal bankruptcy and a
tax dispute doesn’t change much.” Id. at 718 (citation and

-App. 20ainternal quotation marks omitted). The Court held that
the state rule of decision should govern, although it left for
the circuit court to determine what that rule was. See id.;
see also United States v. Turley, 878 F.3d 953, 956–57
(10th Cir. 2017) (in dispute arising from a lease between a
private lessor and the United States Postal Service, we
recognized that “obligations to and rights of the United
States under its contracts are governed exclusively by federal law,” but rather than constructing a uniform federal
rule, we incorporated Oklahoma law because “lease contracts for the postal service do not inherently implicate
clear and substantial interests of the National Government, which cannot be served consistently with respect for
state interests.” (brackets and internal quotation marks
omitted)).
In contrast, Boyle v. United Technologies Corp.,
487 U.S. 500, 512 (1988), held that federal common law, not
state law, applied in a diversity case against a federal contractor for an alleged design defect when the contractor’s
design conformed to government specifications. The estate of a Marine pilot sought to hold a government
contractor liable for defective design of a military helicopter’s escape hatch that caused the pilot’s death. See
id. at 503. Although no federal statute precluded government contractors from being held liable for design defects,
see id. at 504, the Court adopted a federal rule that displaced liability under state law in certain limited
circumstances: “when (1) the United States approved reasonably precise specifications; (2) the equipment
conformed to those specifications; and (3) the supplier
warned the United States about the dangers in the use of
the equipment that were known to the supplier but not to
the United States.” Id. at 512. The Court observed that
“imposition of liability on Government contractors will

-App. 21adirectly affect the terms of Government contracts: either
the contractor will decline to manufacture the design specified by the Government, or it will raise its price. Either
way, the interests of the United States will be directly affected.” Id. at 507. To impose design-defect liability under
state law would be “precisely contrary to the duty imposed
by the Government contract (the duty to manufacture and
deliver helicopters with the sort of escape-hatch mechanism shown by the specifications).” Id. at 509.
The issue before us, therefore, is whether any federal
policy or interest demands the creation of a uniform federal rule either requiring or prohibiting enforcement of
discretion-granting provisions in ERISA plans. If not, we
should leave to state law whether to permit or allow such
provisions. In particular, is there a federal interest in requiring that decisions by administrators be subject to de
novo judicial review—that is, depriving administrators of
discretionary power? Or is there a federal interest in always allowing plans to grant discretion to administrators?
In our view, decisions of the Supreme Court have pretty
much answered those two questions. On the one hand, the
Court has set forth with considerable sympathy how
granting discretion to administrators advances certain
ERISA objectives. See Conkright, 559 U.S. at 517–21. It
would be hard to read the discussion in Conkright and conclude that an ERISA plan’s grant of deference is
inconsistent with federal policies and objectives. On the
other hand, the Court has established de novo judicial review as the default standard for reviewing administrator
decisions. See Firestone Tire, 489 U.S. at 110–15. That
holding would seem inconsistent with a determination that
ERISA policy forbids discretionary bans like Colorado’s.
Thus, we can assume that permitting grants of discretion
and forbidding such grants are both consistent with

-App. 22aERISA. Accordingly, there would be no need for a uniform federal-common-law rule favoring one approach over
the other. Adopting a state-law rule of decision is appropriate.
The next question is which state’s law to use. The general rule is that federal choice-of-law principles are used
in resolving federal causes of action.5 See, e.g., Berger v.
AXA Network LLC, 459 F.3d 804, 809–10 & n.7 (7th Cir.
2006) (citing cases); Gluck v. Unisys Corp., 960 F.2d 1168,
1179 & n.8 (3d Cir. 1992); 17A James Wm. Moore et al.,
Moore’s Federal Practice § 120.31[1][b][ii], at 120–73 (3d
ed. 2011) (“[I]n federal question cases, federal courts look
to federal choice of law principles.”). Thus, in Kamen, after determining that no uniform federal rule was required
and that the courts should apply state law regarding the
demand-futility exception for derivative actions under the
ICA, the Court did not look to state choice-of-law doctrine
before declaring that federal courts must apply the “demand futility exception as it is defined by the law of the
State of incorporation.” 500 U.S. at 109 (emphasis added).
Similarly, after deciding that state contract law should be
incorporated to resolve a dispute over a lease for a federal
post office, this court in Turley, again without canvassing
state choice-of-law doctrine, held that Oklahoma law
should govern because that was where the property was
5

Ellis cites our decision in Loveridge v. Dreagoux, 678 F.2d 870,
877 (10th Cir. 1982), for the proposition that when selecting the applicable state law we must “follow the conflict of laws rules of the forum
state where jurisdiction is based on a federal question.” Aplee. Br. at
18. But Loveridge is readily distinguishable. Although the jurisdiction
of the federal court was based on a federal-law claim (under the Securities Exchange Act of 1934), the choice-of-law issue arose with
respect to a pendent state-law claim—a breach- of-contract claim under Utah law. See id. at 872.

-App. 23alocated. 878 F.3d at 957. (This is not to say that federal law
cannot incorporate state choice-of-law doctrine in resolving a federal claim. In Richards v. United States,
369 U.S. 1 (1962), the Supreme Court interpreted the Federal Tort Claims Act to apply not only the substantive law
of the State where the negligence occurred but also that
State’s choice-of-law doctrine, see id. at 10–11; see also In
re Gaston & Snow, 243 F.3d 599, 604–07 (2d Cir. 2001) (applying forum State choice-of-law rule for contract dispute
in bankruptcy court).
In particular, in ERISA cases the federal circuits have
applied federal choice-of- law principles to determine
whether to give effect to a policy’s choice-of-law provision.
Other circuits have identified three possible approaches,
two of which have been adopted.
The Ninth Circuit has said that the choice-of-law provision in an ERISA plan should be followed if “not
unreasonable or fundamentally unfair.” Wang Labs v. Kagan, 990 F.2d 1126, 1128–29 (9th Cir. 1993). The dispute
before the court concerned an employee whose ERISA
plan required him to reimburse medical expenses paid by
the plan for injuries he received in a vehicle accident after
he obtained a tort recovery for the accident. See
id. at 1127. The employee argued that the plan’s reimbursement claim was barred by the applicable statute of
limitations. See id. The plan contained a choice-of- law provision selecting Massachusetts law. See id. at 1128. The
employer and the plan administrator were headquartered
there, and most employees affected by the plan lived
there; but the employee resided in California at all relevant times and the accident occurred in California. See
id. at 1127–28.
The court relied on the Supreme Court’s decision in
Carnival Cruise Lines v. Shute, 499 U.S. 585 (1991). See

-App. 24aWang, 990 F.2d at 1128–29. Carnival held that forum- selection clauses, even in contracts of adhesion (such as a
cruise ticket), should be enforced if not unreasonable or
fundamentally unfair. See 499 U.S. at 592–95. Wang reasoned that choice-of-law clauses would be less
burdensome to plan beneficiaries than forum-selection
clauses because beneficiaries could still litigate ERISA
disputes in their home state. See 990 F.2d at 1129. It ruled
that the choice-of-law clause in the ERISA contract was
not unreasonable or fundamentally unfair since the employer was headquartered in Massachusetts, most
covered employees resided in the state, and “[n]o sensible
person would hesitate to join a health plan because claims
would be subject to the limitations period of the employer’s headquarters state.” Id. The Eighth and
Eleventh Circuits have followed Wang’s unreasonable-orfundamentally-unfair test for choice-of-law provisions in
ERISA contracts. See Brake v. Hutchinson Tech. Inc.,
774 F.3d 1193, 1197 (8th Cir. 2014) (declining to apply law
of South Dakota (plaintiff’s home state and the forum
state) disallowing discretion clause in health-insurance
policies); Buce v. Allianz Life Ins. Co., 247 F.3d 1133, 1149
(11th Cir. 2001) (adhering to plan’s choice of Georgia law
(plaintiff’s home state and forum state)).
The Sixth Circuit has adopted a different approach,
applying the test set out in Section 187 of the Restatement
(Second) of Conflict of Laws for when a contractual choiceof-law
provision
should
be
enforced.6
See
6

Ellis contends that § 188 of the Restatement should control this
case, and that under § 188’s multi-factor test Colorado law should apply. But § 188 is titled (and unsurprisingly concerns): “Law Governing
in Absence of Effective Choice by the Parties.” Restatement (Second)
of Conflict of Laws § 188 (1971) (emphasis added). Here, the Policy
contains a clear choice-of-law provision, and Ellis makes no argument

-App. 25aDaimlerChrysler v. Durden, 448 F.3d 918, 922 (6th Cir.
2006) (“In the absence of any established body of federal
choice of law rules, we begin with the Restatement (Second) of Conflicts of Law.” (internal quotation marks
omitted)). Section 187 provides, in relevant part:
(1)
The law of the state chosen by the
parties to govern their contractual rights
and duties will be applied if the particular
issue is one which the parties could have resolved by an explicit provision in their
agreement directed to that issue.
(2)
The law of the state chosen by the
parties to govern their contractual rights
and duties will be applied, even if the particular issue is one which the parties could not
have resolved by an explicit provision in their
agreement directed to that issue, unless either
(a) the chosen state has no
substantial relationship to the
parties or the transaction and
there is no other reasonable
basis for the parties’ choice, or
(b) application of the law of
the chosen state would be contrary to a fundamental policy
of a state which has a materially greater interest than the
chosen state in the determination of the particular issue
why this is not an “effective choice” within the meaning of the Restatement.

-App. 26aand which, under the rule of
§ 188, would be the state of
the applicable law in the absence of an effective choice of
law by the parties.
Restatement (Second) of Conflicts of Laws, § 187
(1971). Durden involved two women who each claimed to
be the “surviving spouse” of an employee covered under
his employer’s ERISA-governed pension plan, which had
a choice-of-law provision selecting Michigan law. 448 F.3d
at 921. After the employee passed away, his surviving
spouse was entitled to benefits from the pension plan, including life-insurance proceeds. Id. The court ultimately
decided that Ohio law governed because it had the most
significant relationship to both marriages. See
id. at 923–27.
When faced with resolving whether an ERISA plan’s
choice-of-law provision governed in determining if the employee’s misconduct forfeited his benefits, the Fifth
Circuit identified three possible approaches. See Jimenez
v. Sun Life Assur. Co., 486 F. App’x 398, 407–08 (5th Cir.
2012). It noted the Wang and Durden tests, and said that
in international-disputes cases it had presumptively enforced a contractual choice-of-law provision unless the
party hoping to avoid enforcement clearly showed “that
the clause [was] unreasonable under the circumstances.”
Id. at 408 (internal quotation marks omitted). But it declined to choose a standard because it held that the
employee challenging the administrator’s denial of benefits failed to satisfy his burden of overcoming the
contractual choice-of-law provision under all three approaches. See id.

-App. 27aIn our view, the above three circuit approaches, all of
which sound primarily in reasonableness, are inadequate
because they overlook the uniformity and efficiency objectives central to ERISA. Over several decades the
Supreme Court has repeatedly recognized and emphasized that ERISA policy is best effectuated if a plan
administrator is subject to only one legal regime.
The choice-of-law issue obviously is most likely to arise
for interstate employers. And it is precisely in plans for
interstate employers that the need for a single legal regime is most pressing. As stated in Shaw v. Delta Air
Lines, Inc., 463 U.S. 85, 105 (1983), “By establishing benefit plan regulation as exclusively a federal concern,
Congress minimized the need for interstate employers to
administer their plans differently in each State in which
they have employees.” (citation and internal quotation
marks omitted).
The Court noted that the imposition of patchwork regulation by a variety of states could be particularly
burdensome to “[a]n employer with employees in many
States [who] might find that the most efficient way to provide benefits to those employees is through a single
employee benefit plan.” Id. at 105 n.25. The consequences
would be harmful to employers and employees:
The employer might choose to offer a number of plans, each tailored to the laws of
particular States; the inefficiency of such a
system presumably would be paid for by
lowering benefit levels. Alternatively, assuming that the state laws were not in
conflict, the employer could comply with the
laws of all States in a uniform plan. To offset
the additional expenses, the employer

-App. 28apresumably would reduce wages or eliminate those benefits not required by any
State. Another means by which the employer could retain its uniform nationwide
plan would be by eliminating classes of benefits that are subject to state requirements
with which the employer is unwilling to
comply.
Id.
Likewise, in Fort Halifax Packing Co. v. Coyne,
482 U.S. 1, 11 (1987), the Court observed that “[a] patchwork scheme of regulation would introduce considerable
inefficiencies in benefit program operation, which might
lead those employers with existing plans to reduce benefits, and those without such plans to refrain from adopting
them.” To avoid such outcomes, ERISA preemption “ensures that the administrative practices of a benefit plan
will be governed only by a single set of regulations.” Id.
More recently the Court has reiterated that “[o]ne of
the principal goals of ERISA is to enable employers to establish a uniform administrative scheme, which provides a
set of standard procedures to guide processing of claims
and disbursement of benefits.” Egelhoff, 532 U.S. at 148
(internal quotation marks omitted). “Uniformity is impossible, however, if plans are subject to different legal
obligations in different States.” Id. “Requiring ERISA administrators to master the relevant laws of 50 States and
to contend with litigation would undermine the congressional goal of minimizing the administrative and financial
burden[s] on plan administrators—burdens ultimately
borne by the beneficiaries.” Id. at 149–50 (brackets and
internal quotation marks omitted). Such “tailoring of
plans and employer conduct to the peculiarities of the law

-App. 29aof each jurisdiction is exactly the burden ERISA seeks to
eliminate.” Id. at 151 (internal quotation marks omitted);
see H.R. Rep. No. 93-533, 1973 WL 12549, at 4650 (1973)
(“Finally, it is evident that the operations of employee
benefit plans are increasingly interstate. The uniformity
of decision which the Act is designed to foster will help administrators, fiduciaries and participants to predict the
legality of proposed actions without the necessity of reference to varying state laws.”).
And the Court in Conkright, 559 U.S. at 517, reiterated
that “ERISA induces employers to offer benefits by assuring a predictable set of liabilities, under uniform
standards of primary conduct and a uniform regime of ultimate remedial orders and awards when a violation has
occurred.” (brackets and internal quotation marks omitted). Of particular importance, the Court noted a potential
problem with patchwork state regulation that could be fatal to interstate plans: “[A] group of prominent actuaries
tells us that it is impossible even to determine whether an
ERISA plan is solvent (a duty imposed on actuaries by
federal law, see 29 U.S.C. §§ 1023(a)(4), (d)) if the plan is
interpreted to mean different things in different places.”
Id. at 517–18.
These concerns explain not only the preemption of
most state law regarding ERISA plans but also the need
for uniform interpretation and enforcement of plan provisions in those areas where state law is not preempted. The
Supreme Court’s decision in Kennedy v. Plan Administrator for DuPont Savings and Investment Plan,
555 U.S. 285, 300 (2009), is instructive. In Kennedy an employee who participated in his company’s ERISA plan
signed a form designating his then-spouse to receive benefits under the plan upon his death. Id. at 288–89. When

-App. 30athe couple divorced several years later, the divorce decree
stated that it divested the woman of all rights she may
have had in any of the employee’s benefit plans. See
id. at 289. But the employee did not execute any documents removing her as a beneficiary of the pension plan.
See id. After first holding that the divorce-decree divestment provision was not void under ERISA’s antialienation provision, see id. at 297, the Court considered
whether the plan administrator had to honor the decree or
could instead pay the former spouse benefits under the
plan’s terms.
The Court unanimously held that the “plan administrator did its statutory ERISA duty by paying the benefits
to [the former spouse] in conformity with the plan documents.” Id. at 299–300. ERISA not only “requires ‘[e]very
employee benefit plan [to] be established and maintained
pursuant to a written instrument,’” id. at 300 (quoting 29
U.S.C. § 1102(a)(1)), but further obliges the plan administrators to act “‘in accordance with the documents and
instruments governing the plan insofar as [they] are consistent
with
[ERISA],’”
id.
(quoting
29 U.S.C. § 1104(a)(1)(D)). The Court also pointed out that
ERISA allows a beneficiary to file suit “‘to recover benefits due to him under the terms of his plan,’” further
reinforcing the command to abide by plan terms. Id. (quoting 29 U.S.C. § 1132(a)(1)(B) (emphasis added)). A claim
under ERISA “therefore stands or falls by the terms of
the plan, § 1132(a)(1)(B), a straightforward rule of hewing
to the directives of the plan documents that lets employers
establish a uniform administrative scheme, with a set of
standard procedures to guide processing of claims and disbursement of benefits.” Id. (brackets and internal
quotation marks omitted). Given the statutory goals of
uniformity and predictability in the administration of

-App. 31aERISA plans, “the cost of less certain rules would be too
plain.” Id. at 301.
Heimeshoff v. Hartford Life & Accident Insurance Co.
adhered to the “plan- documents rule” of Kennedy, recognizing that the “focus on the written terms of the plan is
the linchpin of a system that is not so complex that administrative costs, or litigation expenses, unduly discourage
employers from offering ERISA plans in the first place.”
571 U.S. 99, 108 (2013) (upholding plan provision that commenced three-year limitations period before ERISA
cause of action accrues) (brackets and internal quotation
marks omitted); see also U.S. Airways, Inc. v.
McCutchen, 569 U.S. 88, 101 (2013) (“The plan, in short, is
at the center of ERISA.”).
Our choice-of-law doctrine in the ERISA context must
therefore account for the centrality of the plan in ERISA
matters and the aims of uniformity and reduced administrative costs that are essential to ERISA’s purposes. See
Durden, 448 F.3d at 928–29 (Merritt, J., dissenting) (“the
overriding purpose and policy of uniformity behind the
ERISA statute [and] behind the interpretation of ERISA
benefits contracts” requires courts to enforce parties’
choice of law in ERISA plans); William Baude, Beyond
DOMA: Choice of State Law in Federal Statutes,
64 Stan. L. Rev. 1371, 1420 (2012) (criticizing Sixth Circuit’s decision in Durden to follow Restatement instead of
enforcing choice-of-law provision in plan documents: “In
light of the plan-documents doctrine established by the
Supreme Court, the better rule for ERISA cases is to follow a marital choice-of-law rule required by the plan
documents.”).
These considerations apply with full force to the present context. To recognize the Policy’s grant of discretion

-App. 32ato the administrator for plan participants in some states
but not in others would create significant complications.
Legislatures enact statutes forbidding discretionary provisions for the purpose of awarding more benefits to
participants in insurance plans. But there are costs in doing so. In Conkright the Supreme Court pointed out that
granting deference to the administrator promotes efficiency, predictability, and uniformity. See 559 U.S. at 517.
The increase in costs from denying discretion can lead employers to reduce benefits or even to cancel plans or
refrain from offering them altogether. Indeed, it is precisely because discretion-denying statutes “substantially
affect the risk pooling arrangement between the insurer
and the insured,” Ky. Ass’n of Health Plans, Inc. v. Miller, 538 U.S. at 342, that such statutes have been held to
be laws regulating insurance that are exempted from
ERISA preemption. See, e.g., Orzechowski, 856 F.3d at
694–95; Fontaine, 800 F.3d at 888–89; Standard Ins. Co.
v. Morrison, 584 F.3d 837, 844–45 (9th Cir. 2009) (under a
discretion- denying statute, “insureds may no longer
agree to a discretionary clause in exchange for a more affordable premium”).
When the plan is a single-state plan, the pluses and minuses of denying discretion are relatively clear and
manageable. Every employee is treated the same; each
has a better opportunity to get benefits provided by the
plan and each will bear his or her proportionate share of
any employer costs that may affect what benefits are provided.
But for multistate plans, employees in different states
may be treated differently if the meaning (or enforceability) of the provisions of the plan differ depending on the
state where the employee lives or works. Those whose

-App. 33abenefits are governed by discretion- denying statutes will
have a better chance of receiving benefits than those governed by the law of states without such statutes. We have
already noted that the Supreme Court in Shaw expressed
how such a state of affairs would run contrary to ERISA
policy to “minimize[] the need for interstate employers to
administer their plans differently in each State in which
they have employees,” and would adversely affect plan
beneficiaries. 463 U.S. at 105. Moreover, the disparity in
treatment of plan participants in different states may
make it difficult, if not impossible, to determine the solvency of the ERISA plan. See Conkright at 517–18.
All this is not to say that discretion-denying statutes
are good or bad. As stated above, ERISA itself is agnostic
on the matter. But if the plan has a legitimate connection
to the State whose law is chosen (since Pennsylvania is
where Comcast is incorporated and has its principal place
of business, there can be no question of the propriety of
the Policy’s selecting the law of Pennsylvania), ERISA’s
interest in efficiency and uniformity, as well as its recognition of the primacy of plan documents, compels the
conclusion that the selected law should govern whether a
discretion-granting provision is enforceable. A clear, uniform rule enforcing an ERISA plan’s choice of law is
required to ensure plan administrators enjoy the predictable obligations and reduced administrative costs central
to ERISA—particularly as the choice of law affects the validity of discretionary clauses. We therefore decide that,
as a matter of federal law, the choice of law in the Policy
governs. Pennsylvania law applies to this dispute.7
7

In Dang v. Unum Life Insurance Co. of America, this court considered a claim for benefits under an ERISA plan without a choice-oflaw provision. See 175 F.3d 1186, 1190 (10th Cir. 1999). To determine

-App. 34aEllis’s arguments to the contrary are unpersuasive. He
first contends that choice- of-law provisions incorporate
only substantive law, and “[b]ecause Colorado law dictating the standard of review applicable to ERISA benefits
decision[s] is procedural, it applies here despite [the] Policy’s choice-of-law provision.” Aplee. Br. at 18. But the
very case Ellis cites for this proposition explains that in
cases arising under federal law, federal rules govern procedural issues, meaning Colorado law would still be
inapplicable. See FDIC v. Petersen, 770 F.2d 141, 142–143
(10th Cir. 1985) (in action brought by United States, limitations period from relevant federal statute applied
because Illinois choice-of-law provision in guarantee
which state’s law regarding the notice-prejudice rule to incorporate
as the rule of decision, Dang applied the forum state’s choice-of-law
rule. See id. Its rationale for doing so, however, appears incorrect on
its face. The court explained that “[a] federal court adjudicating state
law claims must apply the forum state’s choice of law principles,” citing Klaxon Co. v Stentor Electric Manufacturing. Co., 313 U.S. 487,
496 (1941). Id. But Dang’s claim was brought under ERISA, see id. at
1188, and, as discussed at some length above, the Supreme Court has
made clear that claims brought under ERISA’s civil-enforcement provision are federal claims. See Metropolitan Life, 481 U.S. at 67; Pilot
Life, 481 U.S. at 56. Moreover, a few days before Dang was filed, the
Supreme Court explained that even if a state-law rule of decision
(there, a notice-prejudice rule, as in Dang) is incorporated into federal
law to resolve an ERISA benefits claim, there is still no state-law
claim. See Unum, 526 U.S. at 377 (1999). All that is involved is that
“[t]he notice-prejudice rule supplied the relevant rule of decision for
this § [1132](a) suit.” Id.
Dang, however, may have intended to declare merely that a federal court should follow a forum state’s choice-of-law rule when the
applicable ERISA plan has no choice-of-law provision. But we need
not decide whether Dang’s analysis or conclusions are correct in that
context under current law because the Policy in this case contains a
choice-of-law provision.

-App. 35acontract presumably did not apply to such procedural issues). In any event, Ellis failed to make this argument to
the district court. Since he does not argue for plain error
on appeal, we consider the argument waived. See Richison
v. Ernest Grp., Inc., 634 F.3d 1123, 1130–31 (10th Cir.
2011).
Ellis next mounts several arguments that applying
Pennsylvania law would be unfair, but these would be unpersuasive even if we were not bound by the plandocuments rule. He argues that choice-of-law determinations should consider unfair surprise to litigants and that
he had no contacts with Pennsylvania. But the Policy’s
choice of Pennsylvania law was clear on its face, preventing any such surprise. Ellis also claims that unfairness is
demonstrated by the fact that the district court ruled in
his favor under de novo review but ruled in Liberty’s favor
when it reviewed for abuse of discretion. This difference
in result is a well-recognized possibility, which is the justification for state laws like Colorado’s that require de
novo review. We have already observed, however, that the
Supreme Court has endorsed choices by ERISA plans to
provide abuse-of-discretion review, noting the potential
benefits for both employees and employers. See
Conkright, 559 U.S. at 517. We see no unfairness.

B.

Review Of Liberty’s Decision

The district court initially ruled that it should review
for abuse of discretion (it had originally decided that the
Colorado discretion-denying statute did not apply because
it postdated the Policy) and upheld the decision by Liberty. But on a motion for reconsideration by Ellis, it
changed its mind regarding applicability of the Colorado
statute, exercised de novo review, and ruled in favor of Ellis. Its first decision was correct. We agree that under an

-App. 36aabuse-of-discretion standard, Liberty’s denial of benefits
must be affirmed.
We uphold a plan administrator’s decision under the
abuse-of-discretion standard “so long as it is predicated on
a reasoned basis.” Adamson v. Unum Life Ins. Co. of Am.,
455 F.3d 1209, 1212 (10th Cir. 2006). We ask only that the
decision “reside[] somewhere on a continuum of reasonableness—even if on the low end.” Id. at 1212 (internal
quotation marks omitted). “Plan administrators, of course,
may not arbitrarily refuse to credit a claimant's reliable
evidence, including the opinions of a treating physician,”
Black & Decker Disability Plan v. Nord, 538 U.S. 822, 834
(2003), but a benefits decision can be reasonable even
when the insurer receives evidence contrary to the evidence it relies on, see Holcomb v. Unum Life Ins. Co. of
Am., 578 F.3d 1187, 1193–94 (10th Cir. 2009). “[C]ourts
have no warrant to require administrators automatically
to accord special weight to the opinions of a claimant’s
physician; nor may courts impose on plan administrators
a discrete burden of explanation when they credit reliable
evidence that conflicts with a treating physician’s evaluation.” Black & Decker, 538 U.S. at 834.
Ellis contends that under the Supreme Court’s decision in Metropolitan Life Insurance Co. v. Glenn,
554 U.S. 105 (2008), we must use a less deferential standard when, as here, the administrator operates under a
conflict of interest by both paying out benefits and adjudicating claims. But Glenn explicitly rejected this
proposition, saying that “[t]rust law continues to apply a
deferential standard of review to the discretionary decisionmaking of a conflicted trustee.” Id. at 115. It instead
instructed that “the reviewing judge . . . take account of
the conflict when determining whether the trustee,

-App. 37asubstantively or procedurally, has abused his discretion.”
Id.; see id. at 115–17. “[C]onflicts are but one factor among
many that a reviewing judge must take into account.” Id.
at 116. Indeed, we have relied on Glenn to explain that the
effect of a conflict is case-specific and “‘prove[s] less important (perhaps to the vanishing point) where the
administrator has taken active steps to reduce potential
bias and to promote accuracy,’” including by utilizing independent physicians. Holcomb, 578 F.3d at 1193 (quoting
Glenn, 554 U.S. at 117 (2008)).
Under the Policy a claimant cannot receive long-term
disability benefits without proof of disability arising from
an injury or sickness that renders the claimant unable to
perform the duties of any occupation. We hold that Liberty did not abuse its discretion in deciding that Ellis had
not established such a disability in light of the evidence
presented to it.
Ellis obtained support for his claim of neurological impairment from several sources. First, in June 2012 he
consulted with Dr. Zacharias, a neurologist, who noted Ellis’s complaints of “poor concentration, dizziness, slowing
of physical and mental skills,” and recommended cognitive
and physical therapy. Aplt. App., Vol. I at 268–69. He also
wrote, though, that he “did not do detailed neuropsychological testing,” and that Ellis was “alert and attentive,”
had no “evidence of a primary neuromuscular disease,”
and had an “[u]nremarkable brain MRI.” Id. at 269. In August 2012, Dr. Zacharias wrote in a follow-up report: “I am
still not sure what accounts for Michael’s condition.
My best assessment would be something happened
with hypoxic injury with either his syncopal episode or his
pulmonary embolism.” Id. at 265. He noted Ellis was progressing with therapy, “but still struggles significantly.”

-App. 38aId. at 265. Completing a restrictions form sent by Liberty
in May 2013, Dr. Zacharias provided a diagnosis for Ellis
of “hypoxic/ischemic encephalopathy” and in response to
a question asking for a description of his “physical, mental
and/or cognitive restrictions,” he directed Liberty “to see
neuropsych testing that supports his impairment.”
Id. at 239.
Also in May 2013, Ellis’s primary-care physician, Dr.
Hadley, reported in response to a Liberty restrictions
form that Ellis suffered from “cognitive impairment from
hypoxic encephalopathy.” Id. at 192 (internal quotation
marks omitted).
In April 2013 one of Liberty’s consulting neuropsychologists, Dr. Crouch, opined that Ellis “would likely be
precluded from performing the usual duties of his job, regardless of accommodations provided.” Id. at 187. He also
commented that Ellis’s test results from Dr. Helffenstein’s evaluation appeared “valid/reliable.” Id. at 187. In
September 2013, Dr. Crouch reaffirmed that the available
records “provide reasonable support for significant impairment,” although he suggested that Ellis be
reevaluated. Id. at 189.
Ellis has relied most heavily on the conclusions of Dr.
Helffenstein, a neuropsychologist, who first tested Ellis in
August and September 2012. According to his report,
“The testing identified significant cognitive deficits suggesting bilateral frontal and bilateral temporal
involvement. The pattern is consistent with cerebral hypoxia.
There is absolutely no way Michael could do his job at
this time from a cognitive standpoint.” Aplee. Supp. App.,
Vol. II at 578 (internal quotation marks omitted). He also
opined “within reasonable neuropsychological probability

-App. 39athat the cognitive deficits noted on testing related directly
and solely to the medical event that occurred on February
1, 2012. It seems reasonable that an episode of cerebral
hypoxia did occur during this event.” Aplt. App., Vol. I at
262. Dr. Helffenstein reevaluated Ellis in May 2014. He
reported that Ellis “demonstrated . . . notable improvement on testing from my first evaluation with him to my
re-evaluation,” id. at 144, but maintained that he was “totally and permanently disabled from competitive
employment,” id. at 145.
Finally, Ellis obtained a SPECT scan in May 2014, and
the neurologist interpreting the scan concluded: “The nature, location, and pattern of these abnormalities is most
consistent with the scientific literature pertaining to a diffuse, toxic/hypoxic encephalopathic process and the
patient’s clinical history which was received after the blind
review.” Id. at 220.
But Liberty had sound reasons not to adopt the above
views. Dr. Hadley, Ellis’s primary care physician, does not
specialize in neurology or neuropsychology, and was likely
just deferring to the views of specialists. And Dr. Crouch,
a consulting neuropsychologist for Liberty, consistently
expressed the view that a 24-second heart stoppage could
not cause neurological injury, and he came to have doubts
whether Ellis suffered cognitive impairments. In September 2013 he had suggested a reevaluation and after
receiving Dr. Gant’s evaluation of Ellis in October, Dr.
Crouch opined that the results “are insufficient to support
the presence of valid/reliable impairment” and that “results from multiple measures of response bias were
suboptimal, indicating that observed abnormal test results
were ‘related to the patient’s desire to obtain disability
benefits.’” Id. at 194 (internal quotation marks omitted).

-App. 40aAs for Dr. Zacharias, he admitted that he did not conduct detailed neuropsychological testing, and the brain
MRI was “[u]nremarkable.” Id. at 269. The restrictions
form he completed for Liberty included no new data and
simply directed Liberty to see prior testing. Further, the
persuasiveness of his conclusions in support of Ellis is diminished by his adoption of the theory that Ellis’s claimed
deficits may have been caused by cerebral hypoxia stemming from his 24-second heart stoppage, as this was
deemed medically implausible by essentially every other
physician to review the case.
The SPECT scan is obviously objective data, but the
relevance could reasonably be questioned by Liberty. Dr.
Belliveau expressed doubts:
Scientific studies about the utility of
SPECT procedures during evaluation of dementia or brain injury due
to trauma may not necessarily be applicable to evaluation of brain injury
due to hypoxic-ischemic events, and .
. . the cognitive and psychological assessment methods used during
neuropsychological examination represent a more direct process of
determining the examinee’s functional status.
Id. at 110. Although Ellis submitted to Liberty a number of medical-journal articles and court documents
discussing the utility of SPECT scans, these focused almost exclusively on evaluating traumatic brain injury—
without any mention of their utility in assessing hypoxic
injury. And Ellis has not alleged that his disability was
caused by physical trauma to the brain.

-App. 41aThere remains Dr. Helffenstein. Liberty could reasonably have questioned his objectivity. He was hired by
Ellis’s attorney to evaluate Ellis; and his initial report in
November 2012 appears to have been a bit overenthusiastic. Although he had been advised that the duration of
Ellis’s cardiac standstill had been only 24 seconds, the report stated that Ellis’s “cognitive deficits noted on testing
relate directly and solely to the medical event that occurred on February 1, 2012. It seems reasonable that an
episode of cerebral hypoxia did occur during this event.”
Id. at 262 (emphasis added). By August 2013 he had
walked back this theory, stating that he would “totally
concur” with the assessment that “it is highly unlikely that
the reported 24-second period of asystole on February 1,
2012 would be the cause of [Ellis’s] cognitive complaints.”
Id. at 228 (internal quotation marks omitted). He proposed
instead that Ellis’s “cognitive dysfunction most likely relates to a more extended period of cerebral hypoxia,” but
failed to identify how or when such an event might have
occurred. Id. His final report in July 2014 then broadened
his original hypothesis, suggesting that Ellis “experience[d] some type of neurological event (likely a hypoxic
episode or episodes) during the early part of February of
2012 related to his various medical conditions.” Id. at 144.
But he added: “I am not sure that any physician or neuropsychologist could point to a specific time or event that
resulted in Mr. Ellis’[s] injury but, at this point, I am absolutely convinced that such an injury did occur.” Id.
Most importantly, two neuropsychologists challenged
Dr. Helffenstein’s methods and the validity of his results.
Dr. Belliveau, Liberty’s consulting neuropsychologist,
questioned the results of Dr. Helffenstein’s testing because of significant evidence of symptom overreporting
and other evidence of invalidity. He noted that tests differ

-App. 42ain their ability to detect insufficient effort and that Ellis
had passed the less sensitive tests but failed those that are
more sensitive to insufficient effort. In light of the “multiple findings of invalid neuropsychological test data,” Dr.
Belliveau concluded that the “available medical record
documentation” in Ellis’s file “represents insufficient support for the conclusion that the claimant has permanent
cognitive impairment due to hypoxic- ischemic encephalopathy.” Id. at 124.
Similarly, Dr. Gant, the independent neuropsychologist Liberty retained from an outside vendor, criticized
Dr. Helffenstein for using outdated and inadequate tests.
He conducted his own testing and evaluation but decided
that many of the test scores were invalid. He reported: “It
is unlikely that [Ellis] provided valid effort during this examination. Clear evidence of symptom exaggeration and
suboptimal effort was identified.” Id. at 202. In particular,
he observed:
Ellis reported an unusual and elevated degree of neurological complaints which are
likely to be vague and illogical . . . [Other
tests] indicated that the degree of neurological impairment reported by . . . Ellis was
highly atypical and illogical. Such a presentation includes symptoms that are illogical
or inconsistent with symptoms of a bona
fide neurologic disorder or they occur very
rarely in neurologically impaired patients.
Id. at 203–04. He concluded that “within reasonable
medical probability [Ellis] has not suffered cognitive impairment related to the asystole event which lasted 24
seconds on February 1, 2012,” and that “elements of secondary gain and/or impairment related to somatic

-App. 43aexaggeration is responsible for [Ellis’s] presentation.”
Id. at 196.
On this record we cannot say that Liberty’s denial of
benefits was an abuse of discretion. Ellis criticizes several
aspects of Liberty’s decision-making. Although some of
the criticism has weight, a decision is not arbitrary and capricious just because some may be persuaded otherwise.
Ellis first asserts that Liberty improperly relied on the
conclusions of its hired reviewers despite flaws in their
testing methods and reports. He argues that Liberty
failed to credit Dr. Helffenstein’s claim that fatigue during
testing could alone account for Ellis’s “sub optimal performance on symptom validity measures” during Dr. Gant’s
testing. Id. at 135. But Dr. Helffenstein does not explain
how fatigue could cause the apparently intentionally dishonest reporting observed by Dr. Gant. And even though
Ellis was provided breaks during his 2012 evaluation with
Dr. Helffenstein, Dr. Belliveau expressed doubts as to the
validity of the scores obtained during that evaluation as
well —contrary to the suggestion that fatigue fully accounted for the symptom exaggeration and other
measures of invalidity that Dr. Gant observed.
Ellis also claims that Dr. Gant did not review Dr. Helffenstein’s raw data, and that Dr. Crouch, who did, opined
that Dr. Helffenstein’s test findings were valid and reliable. But Dr. Gant was still able to criticize the testing on
the ground that the tests were out of date and that “inadequate testing was done to evaluate patient effort and test
validity”; and he suggested that the raw data be obtained.
Id. at 202. In any event, Dr. Belliveau did review that data
and, like Dr. Gant, criticized Dr. Helffenstein’s results and
methods, not only stating that Dr. Helffenstein used outdated tests but also that his data indicated symptom

-App. 44aoverreporting. And Dr. Crouch agreed with Dr. Gant’s
conclusion that Ellis had not been candid in Dr. Gant’s
testing.
Ellis criticizes Liberty’s instructions for conducting a
July 2013 vocational report. The vocational case manager
who submitted the report was asked “to base [the] report
on a presumed sedentary work capacity, and not to include
any cognitive and/or mental restrictions and limitations”
in her assessment. Aplee. Supp. App., Vol. II at 455. Ellis
argues that these instructions are “clear[] evidence that
Liberty never intended to provide Ellis with a full and fair
review of his claim, but instead, conducted a result-oriented investigation solely intended to terminate his
benefits.” Aplee. Br. at 49. The argument is not totally offthe-wall, but it is a stretch. The record shows that the vocational report was for “an exploratory TSA [transferable
skills analysis],” Aplee. Supp. App., Vol. I at 28, which
would be necessary because in two months Mr. Ellis’s eligibility for disability would require inability to perform
the “material and substantial duties of any occupation” rather than “of his own occupation,” Aplt. App. at 296
(emphasis added). That would not be a nefarious purpose
for conducting the limited evaluation, particularly since
Liberty was at the same time pursuing the medical basis
of the alleged cognitive deficits and would thus later be
able to assess Ellis’s ability to perform the alternate occupations identified in the vocational report in light of any
mental limitations.
Ellis complains that Liberty instructed that Dr.
Crouch, who had expressed some support for Ellis’s claim,
should not be assigned to review the file on internal appeal. But the reason given for the instruction was that “he
previously handled the file.” Aplee. Supp. App., Vol. I at

-App. 45a55. On its face, it seems reasonable, and apparently legally
mandated, to have an appeal handled by persons other
than those who handled the initial decision. See
29 C.F.R. § 2560.503–1(h)(3)(v).
Finally, Ellis claims that Liberty ignored other evidence demonstrating he was cognitively disabled, namely
(1) Liberty’s surveillance of him, (2) his Social Security
Disability Insurance (SSDI) award, and (3) a letter from
his speech therapist and other clinical notes from various
providers. But the record rebuts this assertion.
To begin with, Drs. Belliveau, Crouch, and Gant all reviewed the surveillance reports as part of their
consideration of Ellis’s claim. In particular, Dr. Crouch remarked that there were “[n]o cognitive [symptoms]
documented” in the first surveillance report, Aplt. App.,
Vol. I at 182, and “[n]o abnormalities noted in limited visual contact” in the second report, id. at 191, diminishing
their relevance to Ellis’s claim of cognitive impairments.
Liberty also acknowledged the SSDI award. Its letter
denying benefits stated that it was “aware [of] and fully
considered” the December 2013 ruling of the Social Security Administration (SSA) granting the award. It
explained, though, that its decision was “based upon updated medical records and testing, and different medical
and vocational reviews that would not have been considered by the SSA in December 2013,” and that the SSA
requirements are not the same as those in the Policy.
Id. at 105. Ellis’s SSDI application was submitted before
Dr. Gant’s evaluation and report and Dr. Belliveau’s review, and there is no indication that the SSA considered
the later reports.
Similarly, the record indicates that all the clinical
notes were reviewed by Liberty experts. The experts did

-App. 46anot disregard them; it is just that they found that the record considered as a whole was inadequate to support
Ellis’s claim. Dr. Belliveau explicitly stated his conclusion
was based on “[t]he available medical record documentation, including the scope, severity, and persistence of the
claimant’s reported symptoms; observations of his treatment providers; [and] multiple findings of invalid
neuropsychological test data.” Id. at 124 (emphasis
added). Dr. Gant similarly arrived at his opinion “[a]fter
reviewing the medical records, the report completed by
Dr. Helffenstein, and completing [his] own evaluation.”
Id. at 210. Again, the existence of evidence supporting Ellis’s claim does not render a denial of benefits
unreasonable. See Holcomb, 578 F.3d at 1193–94 (upholding benefits denial even though insurer “had received a
large volume of reports, letters, imaging studies, and exams that were not entirely consistent”).
In sum, Liberty relied on two expert neuropsychologists, Drs. Gant and Belliveau, who both concluded that
there was insufficient evidence from Ellis’s medical records and test data to support his claim of cognitive deficits.
Because the record shows Liberty and the experts it retained considered all the pertinent evidence submitted by
Ellis and that Liberty reasonably gave less weight to
much of Ellis’s evidence, we cannot say that Liberty
abused its discretion in denying Ellis’s claim for benefits.

III.

CONCLUSION

We REVERSE the district court’s judgment in Ellis’s
favor and REMAND for entry of judgment in Liberty’s
favor.

-App. 47a-

APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLORADO
LEWIS T. BABCOCK, JUDGE
Civil Action No. 15-cv-00090-LTB
MICHAEL D. ELLIS,
Plaintiff,
v.
LIBERTY LIFE ASSURANCE COMPANY OF BOSTON, a New Hampshire corporation,
Defendant.
MEMORANDUM OPINION AND ORDER
Babcock, J.
This ERISA case is before me on Plaintiff Michael D.
Ellis’s Motion for Reconsideration/Amendment of Judgment under Fed. R. Civ. P. 59 and/or for Relief From
Order Pursuant to Rule 60 [Doc #68]. In its response to
Mr. Ellis’s motion, Defendant Liberty Life Assurance
Company of Boston (“Liberty”) moved to strike an exhibit
attached to Mr. Ellis’s motion [Doc #70]. After consideration of the parties’ briefs, the record, and the case file, and
for the reasons set forth below, I grant Mr. Ellis’s motion;

-App. 48adeny Liberty’s motion to strike; vacate the judgment entered in this case in favor of Liberty; and enter judgment
in favor of Mr. Ellis.
I.
Background
By Memorandum Opinion and Order dated September
18, 2018 [Doc # 66] (the “Order”), I entered judgment in
favor of Liberty on Mr. Ellis’s claim that Liberty wrongfully terminated his long term disability benefits under
Liberty’s Group Disability Income Policy GF3-830502315-01 (the “Policy”). In analyzing Mr. Ellis’s claim, I
applied an arbitrary and capricious standard of review after determining that the Policy provision giving Liberty
discretionary authority to construe the terms of the Policy
and determine benefits eligibility was not void pursuant to
C.R.S. § 10-3-1116(2) which prohibits such discretionary
provisions. By his motion, Mr. Ellis, represented by new
counsel, again argues that § 10-3-1116(2) is applicable in
this case and that his benefits claim is therefore subject to
de novo review. Mr. Ellis further argues that de novo review dictates that judgment be entered in his favor on his
claim for continuing long term disability benefits under
the Policy.
III.
Analysis
A. Standard of Review
My conclusion that § 10-3-1116(2) was not retroactively applicable to the Policy was predicated on the fact
that the Policy was issued in 2005, prior to the enactment
of §10-3-1116(2) in 2008. In reaching this conclusion, I considered Mr. Ellis’s argument that the 2005 issuance date
was not determinative because relevant events, including
renewals and amendments to the Policy and the assertion
and processing of his disability claim, occurred after 2008.

-App. 49aIn again arguing that 2005 is not the determinative
date in analyzing the applicability of §10-3-1116(2), Mr. Ellis focuses on amendments to the Policy which he made
cursory reference to in his original briefing and a Summary Plan Description (“SPD”) for Comcast’s Disability
Plan that was not part of the administrative record. With
respect to amendments, Mr. Ellis cites footers on several
pages of the Policy to demonstrate that portions of the
Policy were amended subsequent to the 2005 issuance
date, most notably in 2011. See Doc # 52, pp. 16, 17, 18, 21,
22, 31 & 32. The cited pages do not include the General
Provisions section of the Policy which contains the discretionary authority provision that Liberty relies on for
application of an arbitrary and capricious standard of review. In fact, this section of the Policy does not reference
any effective date, either 2005 or any subsequent year. See
Doc # 52, pp. 41-5. Liberty, however, bears the burden of
establishing that the arbitrary and capricious standard of
review is applicable in this case. LaAsmar v. Phelps Dodge
Corp. Life, Accidental Death & Dismemberment and Dependent Life Ins. Plan, 605 F.3d 789,796 (10th Cir. 2010).
Liberty has failed to provide any evidence to rebut Mr.
Ellis’s argument that the Policy has been amended several
times. Liberty has also failed to cite any legal authority to
rebut Mr. Ellis’s argument that these amendments take
this case out of the purview of Johnson v. Life Ins. Co. of
North Amer., 2017 WL 1154027 at *11-*13 (D. Colo. Mar.
28, 2017) and Mustain-Wood v. Nw. Mut. Life Ins. Co.,
938 F. Supp. 2d 1081, 1084-85 (D. Colo. 2013), which informed my analysis of the retroactivity of § 10-3-1116(2) in
the Order. Since both Johnson and Mustain-Wood dealt
solely with policy renewals, I no longer find them persuasive authority for my analysis of this issue.

-App. 50aIn addition, the SPD submitted by Mr. Ellis with his
motion provides as follows:
This [Plan] is effective January 1, 2011 and
is established by [Comcast] to provide both
short-term disability and long-term disability benefits to its eligible employees. It is
the successor plan to the previously maintained Short-Term Disability Plan and
Long-Term Disability Plan.
See Ex. 1 to Motion, p.2. Liberty argues that I should
not even consider the SPD because it was not part of the
administrative record before the Court. As Mr. Ellis
points out, however, Liberty was responsible for compiling the administrative record to be reviewed by the Court
(see Doc #70, p.2) and owed a fiduciary duty to him to ensure that he received any benefits to which he was
entitled. See Gaither v. Aetna Life Ins. Co., 394 F.3d 792,
807-08 (10th Cir. 2004). Asking the Court not to consider
information known to it that is relevant to Mr. Ellis’s claim
for long term disability runs counter to the duty that Liberty owes Mr. Ellis. I therefore reject Liberty’s request
that I strike the SPD from consideration.
Liberty also argues that it should not be bound by the
SPD since it was prepared and issued by Comcast. Clearly
though, the SPD and the Policy are related. See Exhibit 1
to Motion, p. 2 (“... benefits which are insured are provided
through a contract of insurance...”). Furthermore, Mr. Ellis’s claim for long term disability benefits arises out of his
participation in Comcast’s Disability Plan which, per the
SPD, went into effect in 2011, or well after the enactment
of § 10-3-1116(2)’s prohibition on discretionary provisions
like that contained in the Policy.
Again, Liberty bears the burden of establishing that

-App. 51athe arbitrary and capricious standard of review is applicable in this case. LaAsmar, supra. In light of the numerous
amendments to the Policy that have now been highlighted
by Mr. Ellis and the SPD submitted to the Court with his
motion, I conclude that Liberty is unable to meet its burden of establishing that it is entitled to a more deferential
standard of review because the Policy issuance date of
2005 precludes application of § 10-3-1116(2). I must therefore reconsider Mr. Ellis’s claim for continuing long term
disability benefits de novo.
In this case, de novo review means that I give no deference to Liberty’s decision to terminate payment of long
term disability benefits to Mr. Ellis but rather take a fresh
look at all of the evidence and determine whether a preponderance of the evidence supports Liberty’s decision.
See Smith v. Reliance Standard Life Ins. Co., 322 F. Supp.
2d 1168, 1176 (D. Colo. 2004); Reynolds v. UNUM Life
Ins. Co. of Amer., 1998 WL 654475 at *3 (D. Colo. June 15,
1998).
B. Merits Of Mr. Ellis’s Claim For Continuing
Long Term Disability Benefits
The background relating to Mr. Ellis’s claim for long
term disability benefits that was set forth in the Order is
incorporated herein by reference. See Doc # 66, pp. 1-12.
I further note that neither Mr. Ellis nor Liberty has presented any new evidence regarding Mr. Ellis’s claim of
ongoing disability or made any additional arguments regarding Liberty’s decision to terminate his long term
disability benefits. Applying the de novo standard of review to the evidence and arguments presented in the
parties’ original briefing, I conclude that Liberty’s decision to terminate Mr. Ellis’s long term disability benefits
under the Policy’s “Any Occupation” provision is not

-App. 52asupported by a preponderance of the evidence and therefore enter judgment in favor of Mr. Ellis for the reasons
set forth below As set forth in the Order, Mr. Ellis’s treatment providers were all in agreement that he suffered
from some degree of cognitive impairment after experiencing significant health issues in January and February
of 2012. See e.g. Order, pp. 3-4. Drs. Hadley and Zacharias
expressly advised Liberty that this impairment rendered
Mr. Ellis unable to work. Id. Dr. Helffenstein reached the
same conclusion after his initial neuropsychological examination of Mr. Ellis, and Dr. Crouch, Liberty’s own
consulting neuropsychologist, twice reached this same
conclusion though he questioned whether the 24 seconds
of heart stoppage that Mr. Ellis experienced on February
1, 2012 could be the sole cause of his impairment.
Id. at pp. 6-7. Results from clandestine surveillance conducted of Mr. Ellis on behalf of Liberty over several days
were consistent with these assessments in that they
showed minimal activity where Mr. Ellis was once driven
by someone else and walked slowly using a cane. Doc #
34-12, pp. 4-6 & Doc # 35-5, pp. 14-18.
Although a Transferrable Skills Analysis/Vocational
Review of Mr. Ellis that was performed on behalf of Liberty determined that Mr. Ellis could work in occupations
including software engineer and computer systems engineer, this analysis notably did not include any of the
cognitive limitations that are noted throughout Mr. Ellis’s
file and which were unchallenged at the time vocational
analysis was completed. Id. at p. 8. Prior to Liberty’s termination of Mr. Ellis’s long term disability benefits then,
the only evidence that it had to support this decision was
Dr. Gant’s report from his neuropsychological testing of
Mr. Ellis at Liberty’s request During his testing of Mr.
Ellis, Dr. Gant observed that Mr. Ellis had issues with his

-App. 53abalance, was slow to complete the testing, and had difficulty expressing himself. Doc # 34-10, p. 5 - 6.
However, the results of Dr. Gant’s testing were “invalid,”
and Dr. Gant concluded that he was “not certain” that Mr.
Ellis suffered from cognitive impairment though he too
opined that any such impairment was not caused by the
24-second period of asystole that Mr. Ellis suffered on
February 1, 2012. Id. at p. 11. Notably, Dr. Gant also
stated “however, if additional information is provided for
review, including Dr. Helffenstein’s raw data, I would be
happy to either confirm or amend my current opinions.”
Doc # 34-9, p. 23. No further information was provided to
Dr. Gant even though Dr. Helffenstein’s raw data had previously been provided to Dr. Crouch, and Dr. Gant neither
confirmed nor amended his findings. Liberty terminated
Mr. Ellis’s long term disability benefits based on Dr.
Gant’s neuropsychological testing despite all the other evidence supporting his claim. Doc # 34-9, p. 15.
In appealing Liberty’s decision to terminate benefits,
Mr. Ellis provided even more compelling additional evidence to support his claim for long term disability benefits
including a report from a neuropsychological re-evaluation of Mr. Ellis performed by Dr. Helffenstein, a letter
from a speech-language therapist who treated Mr. Ellis
“over several sessions,” findings of disability by the Social
Security Administration, and abnormal results from a
SPECT brain imaging study. See Order, p. 2, 4, 10-11. Liberty denied Mr. Ellis’s appeal. In support of this decision,
Liberty relied on the report of Dr. Timothy Belliveau,
Ph.D., who reviewed Mr. Ellis’s file but did not personally
see Mr. Ellis. Although Dr. Belliveau concluded that the
records he reviewed did not support a finding that Mr. Ellis suffered from any cognitive impairment, the findings
that led to this conclusion are often difficult to follow and

-App. 54aunpersuasive in any event.
Most significantly, Dr. Belliveau was critical of Dr.
Helffenstein’s opinions of Mr. Ellis’s disability based on
the testing Dr. Helffenstein utilized to assess the validity
of Mr. Ellis’s cognitive limitations. However, Mr. Ellis
passed the bulk of the validity tests administered by Dr.
Helffenstein, and there is ample evidence to show that Mr.
Ellis consistently demonstrated the same cognitive limitations to his treatment providers. Dr. Belliveau emphasizes
that Mr. Ellis did not pass what he characterizes as the
most sensitive symptom validity tests - the Word Memory
Test (“WMT”) and the Nonverbal Medical Symptom Validity Test (“NVMSVT”) administered by Dr. Gant.
However, Dr. Crouch did not specify that either of these
tests should be administered in responding to Liberty’s
request for an outline of suggested tests and questions for
a neuropsychological examination of Mr. Ellis (Doc # 3411, pp. 11 -12), and Mr. Ellis had no notice that these specific tests would be determinative. See Doc # 34-9, p. 17.
Liberty also relied on Dr. Belliveau for its rejection of the
SPECT imaging results even though Dr. Belliveau stated
that he would defer to analysis by a consulting neurologist
or radiologist on this issue.
There is no evidence that Liberty ever requested such
a consultation.
Ultimately, Liberty’s conclusion that Mr. Ellis was capable of performing the alternative occupations identified
in his vocational analysis was predicated on its conclusion
that Mr. Ellis did not suffer from any cognitive impairment. This conclusion, however, is not supported by a
preponderance of the evidence. Rather, in reaching this
conclusion, Liberty attached greater weight to the relatively scant evidence that supported a denial of ongoing

-App. 55along term disability benefits for Mr. Ellis than to the voluminous evidence that supported a contrary conclusion.
Moreover, the probative value of the evidence relied on by
Liberty is significantly undermined by Liberty’s failure to
address acknowledged shortcomings in this evidence
through additional review and consultation.
III.
Conclusion
Because I conclude that de novo review of this case dictates a different result than the arbitrary and capricious
standard of review previously employed, justice requires
that the judgment entered in favor of Liberty be vacated
and a new judgment entered accordingly. IT IS THEREFORE ORDERED as follows:
1. Plaintiff Michael D. Ellis’s Motion for Reconsideration/Amendment of Judgment under Fed. R. Civ. P. 59
and/or for Relief From Order Pursuant to Rule 60 [Doc
68] is GRANTED;
2. Defendant Liberty Life Assurance Company of
Boston’s Motion to Strike Pursuant to Fed. R. Civ. P. 12(f)
[Doc # 70] is DENIED;
3. The Court’s Memorandum Opinion and Order
dated September 18, 2018 [Doc #66] and the corresponding Final Judgment entered September 19, 2018 [Doc #
67] are hereby VACATED;
4. Judgment shall enter in favor of Mr. Ellis for long
term disability benefits in the amount of $8,572.29 per
month beginning December 4, 2013 and continuing unless
and until Mr. Ellis’s medical condition changes or until he
reaches the age of 65 on September 12, 2023;
5. The monthly benefit payable to Mr. Ellis by Liberty shall be reduced by the amount of any Social Security
Disability Income paid to him for the same time period;

-App. 56a6. Mr. Ellis shall be awarded his costs and may also
file a motion for interest and attorney fees within thirty
(30) days of the date of this Order.
Dated: January 15, 2019.
BY THE COURT:
s/Lewis T. Babcock
Lewis T. Babcock, Judge

-App. 57a-

APPENDIX D
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLORADO
LEWIS T. BABCOCK, JUDGE
Civil Action No. 15-cv-00090-LTB
MICHAEL D. ELLIS,
Plaintiff,
v.
LIBERTY LIFE ASSURANCE COMPANY OF
BOSTON, a New Hampshire corporation,
Defendant.
MEMORANDUM OPINION AND ORDER
Babcock, J.
This ERISA case is before me for determination of
the merits following briefing by the parties. See Doc #s
57, 61 & 62. After consideration of the parties’ briefs, the
record, and the case file, and for the reasons stated below,
I enter judgment in favor of Defendant Liberty Life Assurance Company of Boston (“Liberty”).
I.
Background
Plaintiff Michael D. Ellis is a former Senior Systems
Architect for Comcast Corporation (“Comcast”). As

-App. 58aSenior Systems Architect, Mr. Ellis’s responsibilities included (1) analyzing product requirements working with
Senior Management, Product Management, Product Design, Finance, Product Development, Integration/Test,
and Operations; (2) allocating system requirements into
individual requirements for new and existing components
and interfaces; (3) analyzing feature complexity and time
estimates, negotiating with management to determine
feature set to be delivered; (4) creating detailed architectural documents; (5) managing requirements database; (6)
creating detailed interface documents; and (7) performing
bandwidth modeling. Doc # 35-12, p.1.
In January of 2012, Mr. Ellis, now 59 years of age, became ill with pneumonia and developed severe chest pain
caused by a pulmonary embolism. Doc # 35-22, p. 10.
While receiving emergency medical treatment for his
chest pain on February 1, 2012, Mr. Ellis went into cardiac
arrest and his heart stopped beating for a period of 24 seconds. Id. Several weeks later, Mr. Ellis reported
diminished concentration, dizziness, and feeling weak and
wobbly. Doc # 35-21, p. 24-5. Mr. Ellis’s last day of work
for Comcast was February 29, 2012, and he was awarded
SSDI benefits from the Social Security Administration
(“SSA”) beginning in August of 2012 based on his claim of
disability due to brain injury, cognitive deficits, possible
cerebral hypoxia, leg weakness, balance problems, depression, tremors, and numbness. Doc # 33-12, pp. 9 & 1115.
As a Comcast employee, Mr. Ellis was eligible to participate in Liberty’s Group Disability Income Policy GF3830-502315-01 (the “Policy”). Mr. Ellis was a Class 4 employee for purposes of coverages under the Policy. Mr.
Ellis’s claim for short term disability benefits, payable by
Comcast pursuant to its Short Term Disability Plan, was

-App. 59afirst approved as of March 1, 2012. Liberty, as the administrator of Comcast’s Short Term Disability Plan
ultimately extended Mr. Ellis’s short term disability benefits to the maximum period of September 5, 2012.
A. Mr. Ellis’s Medical Records
Mr. Ellis received physical and speech-language therapy. Notes from Mr. Ellis’s physical therapy sessions
dated in 2012 reflect that Mr. Ellis was experiencing
weakness, fatigue, and loss of balance/coordination. See
e.g. Doc # 34- 14, p. 9. Notes from Mr. Ellis’s speech therapy sessions in 2012 and 2013 reflect that Mr. Ellis was
experiencing mild to moderate cognitive deficits in areas
including attention, memory, and complex reasoning. See
e.g. Doc #34-15, p. 22.
Dennis A. Helffenstein, Ph.D., performed a neuropsychological examination of Mr. Ellis in August and
September of 2012. Doc # 35-6, pp. 7-22. In a report dated
November 10, 2012, Dr. Helffenstein detailed cognitive
deficits he observed in Mr. Ellis and opined that these deficits “relate directly and solely to the medical event that
occurred on February 1, 2012” and that it “seems reasonable that an episode of cerebral hypoxia did occur during
this event.” Id. at p. 19. Dr. Helffenstein concluded that
due to a combination of his “physical, fatigue, visual, cognitive, and emotional coping problems,” Mr. Ellis was
totally disabled from competitive employment at that
time. Id. at p. 21.
Daniel C. Hadley, M.D., Mr. Ellis’s primary care physician who had been treating him since February of 2012,
completed a restrictions form for Liberty on May 23, 2013
and stated that Mr. Ellis was unable to participate indefinitely in any work situation requiring a minimal amount of
concentration for more than 10 - 20 minutes due to “cognitive impairment from hypoxic encephalopothy.” Doc # 34-

-App. 60a16, p. 21. Alan Zacharias, a neurologist who began treating
Mr. Ellis in May of 2012, also completed a restrictions
form for Liberty on May 25, 2013 and stated that Mr. Ellis
was unable to work as shown by neuropsychological testing and his notes. Doc # 34-16, p. 11.
On August 12, 2013, Dr. Hadley answered Liberty’s request for specific activities restrictions/limitations and
recommended that in an 8-hour workday Mr. Ellis could
sit for 1-1½ hours at a time for a cumulative total of over
5½ hours; stand and walk for a cumulative total of 2½
hours; push, pull, lift, and carry up to 20 pounds for short
distances for a cumulative total of 2½ hours; and was restricted in climbing, squatting, bending, and kneeling due
to dizziness. Doc # 34-12, pp. 11-13. Dr. Hadley also noted
that Mr. Ellis “continues to have cognitive impairment resulting
in
ongoing
disability
related
to
concentration/memory.” Id. at p. 13.
On May 16, 2014, Mr. Ellis was seen for a high-resolution brain SPECT imaging study. S. Gregory Hipskind,
M.D. Ph.D., reported that the results of the study were
abnormal and that the abnormalities “were most consistent with the scientific literature pertaining to a diffuse,
toxic/hypoxic encephalopathic process and the patient’s
clinical history.” Doc # 34-7, pp. 22-4.
B. Liberty’s Policy
The Policy provides that “Liberty shall possess the authority, in its sole discretion, to construe the terms of this
policy and to determine benefit eligibility hereunder. Liberty’s decisions regarding construction of the terms of the
policy and benefit eligibility shall be conclusive and binding.” Doc # 52, p. 42.
In pertinent part, the Policy defines “Disability” or
“Disabled” for purposes of long term disability as follows:

-App. 61ai.
if the Covered Person is eligible for
the 12 Month Own Occupation Benefit,
“Disabled” or “Disability” means that during the Elimination Period and the next 12
months of Disability the Covered Person, as
a result of Injury or Sickness, is unable to
perform the Material and Substantial Duties of his Own Occupation; and
ii.
thereafter, the Covered Person is
unable to perform, with reasonable continuity, the Material and Substantial Duties of
Any Occupation.
Id. at p. 9. Under the Policy,
“Own Occupation” means the Covered
Person’s occupation that he was performing
when his Disability or Partial Disability began. If the Covered Person is unable to earn
80% of his predisability earnings he will be
considered unable to perform his Own Occupation. For purposes of determining
Disability under the policy, Liberty will consider the Covered Person’s occupation as it
is normally performed in the national economy.
“Any Occupation,” with respect to Class 4,
means any gainful occupation that the Covered Person is or becomes reasonably fitted
by training, education, experience, age,
physical and mental capacity. Gainful occupation means an occupation in which the
earnings are:

-App. 62a-equal to or greater than 80% of the
Employee’s pre-disability income;
-less than 80 % of the Employee’s average pre-disability income, but
higher than the average earnings for
the geographic area in which the
Employee resides; or
-equal to or greater than the gross
benefit.
Id. at pp. 7 & 12.
The Policy provides that payment of long term disability benefits will cease on the earliest of
1.
the date the Covered Person fails to
provide Proof of continued Disability or
Partial Disability and Regular Attendance
of a Physician;...
8. The date the Covered Person s no longer
Disabled according to this Policy;...
Id. at pp. 34-5. The Policy also contains a Mental Illness,
Substance Abuse and/or Non-Verifiable Symptoms Limitation (the “Mental Illness provision”) which provides that
the benefit for disability due to any of these conditions will
not exceed a period of 24 months. Id. at p. 26.
C. Liberty’s Handling of Mr. Ellis’s Claim for
Long Term Disability Benefits
By letter dated January 21, 2013, Liberty advised Mr.
Ellis that he would be receiving long term disability benefits under a reservation of rights while it conducted a
medical review to determine his eligibility. Doc # 35-4, p.
22. Liberty had Dr. John A. Crouch, a neuropsychologist
affiliated with Liberty’s Clinical Services Department,

-App. 63aand Dr. Gilbert Wager, a doctor of internal medicine, pulmonary medicine and critical care medicine, review Mr.
Ellis’s medical records. Dr. Wager stated that an assessment of Mr. Ellis’s reported neuropsychological
impairments was outside the scope of his expertise but
opined that from a physical perspective Mr. Ellis appeared able to perform sedentary work on a full time,
sustained basis. Dec # 35-5, p. 9. After reviewing Dr.
Helffenstein’s raw data, Dr. Crouch set forth the following
findings in a report dated April 4, 2013:
. . . various statistically and clinically significant impairments are revealed across
multiple neurocognitive domains including
learning/memory, attention/concentration,
and processing speed.
A variety of significant restrictions and limitations would likely result from this
claimant’s impairment including difficulty
with concentration, persistence, pace, and
adaptation. Given the reportedly cognitively demanding nature of [Mr. Ellis’s] job,
he would likely be precluded from performing the usual duties of the job, regardless of
accommodations provided . . . the likelihood
that his 2/1/12 reported 24-second period of
asystole is the sole cause of his functional
difficulties is highly unlikely. Although findings
from
measures
of
emotional/psychological functioning suggest a possible psychiatric contribution,
other possible contributors remain unclear.
Given this lack of diagnostic clarity, [Mr. Ellis’s] prognosis for possible future RTW

-App. 64aremains unclear.
Doc # 35-4, p.4.
By letter dated April 11, 2013, Liberty notified Mr. Ellis that “[a]lthough the etiology of your cognitive deficits
is unclear at this time, we have determined you are disabled from cognitive deficits and are eligible to receive
LTD benefits.” Doc # 35-3, p. 22. By this letter, Liberty
also advised Mr. Ellis that both of its medical reviewers
indicated that it was highly unlikely that 24-second period
of asystole was the cause of his impairments and that its
reviewing neuropsychologist identified a possible psychiatric component to his cognitive deficits. Id. at pp. 21 - 22.
Based on the latter, Liberty further notified Mr. Ellis and
that his claim for long term disability benefits was subject
to the Mental Illness provision of the Policy. Id. at p. 22.
Liberty identified Mr. Ellis’s date of disability as March 1,
2012 and determined that he was entitled to receive benefits (after the elimination period) as of September 6, 2012.
Id.
In response to this letter, Mr. Ellis provided Liberty
with a letter from Dr. Helffenstein in which he expressed
his agreement with Liberty’s reviewing doctors’ opinions
that it was highly unlikely that the 24-second period of
asystole Mr. Ellis experienced on February 1, 2012 was
the cause of his cognitive impairments. Doc # 34-12, pp. 12. Dr. Helffenstein stated that Mr. Ellis’s cognitive dysfunction “most likely relates to a more extended period of
cerebral hypoxia.” Id. at p. 1. Dr. Helffenstein further
stated that he had no indication “that depression or any
other psychiatric issue was contributing to [Mr. Ellis’s]
cognitive dysfunction identified by [his] testing” and that
Liberty would be making a grievous error if it limited Mr.
Ellis’s disability benefits under the Policy’s Mental Illness
provision “as absolutely no part of his cognitive

-App. 65adysfunction relates to a mental illness.” Id. at pp. 1-2.
Following a request for clarification by Mr. Ellis, Liberty, by letter dated August 26, 2013, explained that Mr.
Ellis was approved for long term disability benefits but
because “the etiology of Mr. Ellis’s cognitive impairments
remains unclear and a psychiatric condition has been
noted as a contributing condition,” the Policy’s Mental Illness provision had been applied and was running
concurrently as Liberty continued to evaluate Mr. Ellis’s
claim. Doc # 34-11, pp. 23-24. Liberty further advised that
it was evaluating whether Mr. Ellis could perform any alternative occupations since the Policy definition of
“Disability” changed after twelve months of benefits.
Id. at p. 24.
A Transferrable Skills Analysis/Vocational Review
(“TSA/VR”) dated July 24, 2013 was performed on behalf
of Liberty. The Vocational Case Manager indicated that
she based her report on a presumed full time sedentary
work capacity and that she did not include any cognitive
and/or mental restrictions and limitations. Doc #34-13, pp.
10-11. The Vocational Case Manager identified software
engineer, project director/manager, computer systems
engineer, and computer information & systems manager
as occupations that Mr. Ellis could perform. Id. at p. 13.
In September of 2013, Liberty again referred the case
to Dr. Crouch and asked him to provide an updated assessment of Mr. Ellis’s ability to perform alternate
occupations. Doc # 34-11, p. 11. Dr. Crouch responded, in
part, that he found it “unlikely that the claimant could perform the job duties of alternate occupations comparable to
his prior job.” Id.
Dr. Bob L. Gant performed neuropsychological testing
of Mr. Ellis on behalf of Liberty in October of 2013 and
reported his results as “invalid.” Doc # 34-10, p. 8. Dr.

-App. 66aGant opined as follows:
...it is my determination that within reasonable medical probability the patient has not
suffered cognitive impairment related to
the asystole event which lasted 24 seconds
on February 1, 2012. In fact, I am not certain that the patient suffers from cognitive
impairment. It is likely that elements of secondary gain and/or impairment related to
somatic exaggeration is responsible for
[Mr. Ellis’s] presentation. During this examination, Mr. Ellis displayed evidence of
symptom exaggeration and poor effort
within the context of a disability examination.
Id. at p. 11. Dr. Gant reviewed Dr. Helffenstein’s November 10, 2012 report and concluded that “inadequate testing
was done [by Dr. Helffenstein] to evaluate patient effort
and test validity.” Id. at p. 3. Dr. Gant further opined about
Dr. Helffenstein’s testing:
... the performance validity tests utilized by
Dr. Helffenstein ... are considered inadequate by current standards ... for assessing
a patient referred within the context of a
disability assessment with unequivocal evidence of secondary gain. Several of the tests
discussed by Dr. Helffenstein are no longer
published and Dr. Helffenstein did not appear to utilize the most current version of
the available tests for assessing secondary
gain issues and poor effort.
Id. Dr. Gant indicated that he would be happy to confirm
or amend his opinions if provided with additional

-App. 67ainformation, including Dr. Helffenstein’s raw data. Doc #
34-9, p. 23.
By letter dated December 10, 2013, Liberty advised
Mr. Ellis that long term disability benefits would no longer
be paid to him after December 3, 2013. Doc # 34- 9, pp. 1116. By way of explanation, Liberty stated that Mr. Ellis’s
failure to put forth valid and reliable effort at the neuropsychological testing performed by Dr. Gant left Liberty
“unable to accurately assess his cognitive complaints to
determine if he remains impaired from working in any capacity.” Id. at p. 15. Liberty also noted Mr. Ellis’s
subjective complaints of fatigue and dizziness but stated
that there was no indication from any treatment provider
that these symptoms were causing impairment to Mr. Ellis or that these symptoms required continued restrictions
and limitations that would prevent Mr. Ellis from performing the duties of Any Occupation. Id.
Mr. Ellis appealed Liberty’s termination of his long
term disability benefits. Doc #s 34-5, pp. 13-16 & 34-7 pp.
1-12. In connection with his appeal, Mr. Ellis provided Liberty with the report from his neuropsychological reevaluation performed by Dr. Helffenstein in March of
2014. Doc # 33-6, p. 21 - Doc # 33-7, p.10. Therein, Dr.
Helffenstein noted that Mr. Ellis had shown improvement
in some areas of testing but had reached maximum medical improvement such that all remaining cognitive deficits
were to be considered permanent. Doc # 33-7, pp. 9-10.
Dr. Helffenstein ultimately concluded that Mr. Ellis was
totally and permanently disabled from competitive employment and further opined as follows:
... Mr. Ellis experienced a 24-second period
of asystole (i.e., cardiac standstill). It is obvious that such a brief period of cardiac

-App. 68astandstill would not be expected to result in
any significant cerebral hypoxia. However,
Mr. Ellis did experience some type of neurological event during this timeframe.
Based on my re-evaluation with Mr. Ellis, I
am even more convinced that he did experience some type of neurological event (likely
a hypoxic episode or episodes) during the
early part of February of 2012 related to his
various medical conditions. I am not sure
that any physician or neuropsychologist
could point to a specific time or event that
resulted in Mr. Ellis’s neurological injury
but, at this point, I am absolutely convinced
that such an injury did occur.
Doc # 33-6, pp. 21-22 & Doc # 33-7, p. 9.
Mr. Ellis also provided Liberty with a letter from his
speech-language therapist who indicated that his “observations and evaluations of Mr. Ellis over many sessions
demonstrate that he has cognitive deficits, most notably in
the areas of attention, memory, organization, speed of cognitive processing, problem- solving/reasoning, wordfinding and cognitive overload.” Doc # 33-12, p. 8. Mr. Ellis’s therapist further indicated that his observations were
consistent with the areas of impairment identified by Dr.
Helffenstein. Id.
Liberty referred Mr. Ellis’s claim to Dr. Timothy Belliveau, Ph.D., for review. Dr. Belliveau summarized Mr.
Ellis’s medical records and provided a detailed analysis of
the three neuropsychological evaluations. Doc # 33-3, p. 3
- 33-4, p. 1. Dr. Bellivaeu concluded that the records provided insufficient support “for the presence of cognitive or
psychologically-based impairment that would necessitate

-App. 69aoccupational restrictions or limitations” and “for the presence of cognitive impairment attributed to hypoxicischemic encephalopathy.” Doc # 33-3, pp. 5-6.
By letter dated September 19, 2014, Liberty advised
Mr. Ellis that his medical condition “is not of a nature and
severity that would preclude him from performing the material and substantial duties of the alternative occupations
identified as being within his functional capacity and vocational skills” and that Liberty was therefore maintaining
its decision to deny continued long term disability benefits
to him beginning December 4, 2013. Doc # 33-2, p. 20 - 333 p.1.
II.
Standard of Review
While Liberty captioned its brief as a Combined Response Brief and Motion for Summary Judgment in an
ERISA Case [see Doc # 61], it concedes that
Fed. R. Civ. P. 56 standards are not applicable in ERISA
cases. Instead, I act as an appellate court and evaluate the
reasonableness of Liberty’s decision based on the evidence contained in the administrative record. Panther v.
Synthes, 380 F. Supp. 2d 1198, 1207 n. 9 (D. Kan. 2005).
“‘[A] denial of benefits’ covered by ERISA ‘is to be reviewed under a de novo standard unless the benefit plan
gives the administrator or fiduciary discretionary authority to determine eligibility for benefits or to construe the
terms of the plan.’” LaAsmar v. Phelps Dodge Corp. Life,
Accidental Death & Dismemberment & Dependent Life
Ins. Plan, 605 F.3d 789, 796 (10th Cir. 2010) (quoting Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101, 115
(1989)). Where the plan gives the administrator such discretionary authority “[courts] employ a deferential
standard of review, asking only whether the denial of benefits was arbitrary and capricious.” Id. (quoting Weber v.

-App. 70aGE Group Life Assur. Co., 541 F.3d 1002, 1010 (10th Cir.
2008)).
The Policy expressly gives Liberty discretion to construe its terms and to determine benefit eligibility. Mr.
Ellis argues that I should nonetheless employ a de novo
standard of review because the applicable provision of the
Policy is void pursuant to C.R.S. § 10-3-1116(2) which
states as follows:
An insurance policy, insurance contract, or
plan that is issued in this state that offers
health or disability benefits shall not contain a provision purporting to reserve
discretion to the insurer, plan administrator, or claim administrator to interpret the
terms of the policy, contract, or plan or to
determine eligibility for benefits.
For § 10-3-1116(2) to be applicable, I must first determine if this case is subject to Colorado law. Liberty argues
that this case is governed by Pennsylvania law because the
Policy so expressly provides and the Policy was issued to
Comcast there. In response, Mr. Ellis argues that the Policy was in fact issued to him as a Comcast employee in
Colorado and that Liberty has failed to cite any authority
to support the argument that it can exempt itself from Colorado’s statutory insurance regulations by electing to be
governed by the laws of another state. I agree with Mr.
Ellis.
Contracting parties may choose the law to govern their
relations “unless there is no reasonable basis for their
choice or unless applying the law of the state so chosen
would be contrary to the fundamental policy of a state
whose law would otherwise govern.” Hansen v. GAB Bus.
Servs., Inc., 876 P.2d 112, 113 (Colo. App. 1994) (citing Restatement (Second) of Conflict of Laws § 187 (1971)).

-App. 71aColorado has an express public policy of regulating insurance to promote the public welfare. See C.R.S. § 10-1-101.
§ 10-3-1116(2) was enacted in furtherance of this policy.
Because there is no comparable statutory provision under
Pennsylvania law, applying Pennsylvania law here would
be contrary to a fundamental policy of the State of Colorado. Having failed to cite any authority to show
otherwise, Liberty’s argument based on the Policy’s
choice-of-law provision must fail. See LaAsmar, 605 F.3d
at 796 (party arguing for more deferential arbitrary and
capricious standard of review bears the burden of establishing that it should be applied). I further conclude that
the Policy was issued in Colorado for purposes of
§ 10-3-1116(2). See Shafer v. Metro. Life Ins. Co.,
80 F. Supp. 3d 1244, 1250-51 (D. Colo. 2015) (policy issued
to corporate employer out-of-state but then issued to
claimant in Colorado was issued in Colorado for purposes
of §10-3-1116(3)).
Liberty also argues that § 10-3-1116(2) is not applicable in this case because it is preempted by ERISA. This
issue has not been addressed by the Tenth Circuit but another judge of this Court considered this question in
McClenahan v. Metro. Life Ins. Co., 621 F. Supp. 2d 1135
(D. Colo. 2009), and concluded that § 10-3- 1116(2) is not
preempted by ERISA. I agree with and adopt the preemption analysis in McClenahan. I further note that the only
authority cited by Liberty in support of its preemption argument is distinguishable because there the court
considered whether § 10-3-1116(3), not §10-3-1116(2), was
preempted by ERISA. See Shafer, 80 F. Supp. 3d at 125157. See also C.R.S. § 10-3-1116(6) (providing that provisions of § 10-3-1116 are severable).
Finally, Liberty argues that § 10-3-1116(2) does not apply in this case because the statute is not retroactive. See

-App. 72aMcClenahan v. Metro. Life Ins. Co., 416 Fed. Appx. 693,
696 (10th Cir. 2011). This argument is predicated on the
fact that the Policy was issued in 2005, prior to the enactment of §10-3-1116(2) in 2008. In response, Mr. Ellis
argues that because relevant events, including renewals
and amendments to the Policy and his disability claim, occurred after the 2008 enactment of § 10-3-1116(2),
application of this statute would not be retroactive. I agree
with Liberty that application of § 10-3-1116(2) in this case
would be retroactive and therefore improper.
Two other judges of this Court have considered the
question of whether § 10- 3-1116(2) can be applied to policies renewed after its effective date and both concluded
that it could not though by different reasoning. See Johnson v. Life Ins. Co. of North Amer., 2017 WL 1154027 at
*11-*13 (D. Colo. Mar. 28, 2017); Mustain-Wood v. Nw.
Mut. Life Ins. Co., 938 F. Supp. 2d 1081,1085 (D. Colo.
2013). I am persuaded by the reasoning in Johnson that
the Colorado Legislature’s failure to expressly state that
§ 10-3-1116(2) would apply to insurance policies renewed
after its effective date despite having done so with respect
to other statutes was an intentional omission that precluded the prospective application of § 10-3-1116(2) based
on policy renewals. Mr. Ellis’s remaining argument that
application of § 10- 3-1116(2) in this case would not be retroactive because all of the events giving rise to his
disability claim occurred well after the statute’s effective
date is also unavailing. Because § 10-3-1116(2) prohibits
the inclusion of certain discretionary authority provisions
in insurance policies, the applicable date for retroactivity
analysis must necessarily relate directly to the policy at
issue. Compare Kisselman v. Amer. Family Mut. Ins. Co.,
292 P.3d 964, 975-6 (Colo. App. 2011)(provisions of
§§ 10-3-1115 & 1116 that prohibit acts of unreasonable

-App. 73adelay or denial of payment of benefits can be violated by
insurer’s post-effective date conduct regardless of when
claim for benefits was made).
Consistent with the terms of the Policy then, I apply
the arbitrary and capricious standard of review. Under
this standard, my “review is limited to determining
whether the interpretation of the plan was reasonable and
made in good faith.” Kellogg v. Metro. Life Ins. Co.,
549 F.3d 818, 826 (10th Cir. 2008) (internal quotations
omitted). A benefits decision will be upheld unless it is not
grounded on any reasonable basis. Kimber v. Thiokol
Corp., 196 F.3d 1092, 1098 (10th Cir. 1999) (citation omitted). The decision need not be the only logical one nor even
the best one so long as it falls somewhere on a continuum
of reasonableness - even if on the low end. Id. Indicia of
arbitrary and capricious decisions include lack of substantial evidence, mistake of law, bad faith, and conflict of
interest by the fiduciary. Caldwell v. Life Ins. Co. of N.
Amer., 287 F.3d 1276, 1282 (10th Cir. 2002). Substantial
evidence is such evidence that a reasonable mind might
accept as adequate to support the decision. Rekstad v. U.S.
Bancorp, 451 F.3d 1114, 1119- 20 (10th Cir. 2006).
An inherent conflict of interest arises when the entity
that determines eligibility for benefits is the same entity
that pays the benefits. Metro. Life Ins. Co. v. Glenn,
554 U.S. 105, 111-15 (2008). When such a conflict of interest exists as it does here, the benefits decision is still
subject to the arbitrary and capricious standard of review
but the conflict is weighed as a factor in determining
whether there is an abuse of discretion. Id. at 115-16.
III. Analysis
The question presented by this appeal is whether Liberty’s decision to deny Mr. Ellis long term disability

-App. 74abenefits under the Policy’s “Any Occupation” provision
was reasonable. Under the arbitrary and capricious standard of review applicable to this case, I conclude that it was
and therefore enter judgment in favor or Liberty for the
reasons set forth below. Preliminarily, Mr. Ellis argues
that Liberty’s handling of his claim for long term disability
benefits became arbitrary and capricious beginning in
April of 2013 when it took the position that Mr. Ellis’s
claim was subject to the Policy’s Mental Illness provision
and questioned the causal connection between the 24-second period of cardiac arrest and Mr. Ellis’s cognitive
deficits. Mr. Ellis acknowledges, however, that Liberty
continued to pay benefits for several months after April of
2013. Moreover, Liberty’s ultimate decision to terminate
Mr. Ellis’s long term disability benefits was not based on
either the Policy’ Mental Illness provision or a lack of causation but rather because Mr. Ellis did not meet the
Policy’s definition of disability under the Policy’s “Any Occupation” provision after December 3, 2013. Doc # 34-9, p.
15. I therefore attach little significance to Liberty’s reference to these considerations in its correspondence in April
of 2013 or in subsequent correspondence.
As for Liberty’s decision to terminate his long term
disability benefits, Mr. Ellis makes several arguments to
undermine the neuropsychological evaluation performed
at Liberty’s request by Dr. Gant. First, Mr. Ellis argues
that Liberty’s reliance on Dr. Gant’s evaluation was not
reasonable because Dr. Gant failed to comply with Dr.
Crouch’s specifications for what should be included in a
neuropsychological re-evaluation of Mr. Ellis. Doc # 3411, p. 11-12. Specifically, Mr. Ellis asserts that Dr. Gant
failed to discuss Mr. Ellis’s background, work accomplishments, earnings, activities, and physical issues and failed
to obtain information from a collateral source regarding
Mr. Ellis’s functioning prior and subsequent to his alleged

-App. 75aimpairment. Dr. Crouch, however, reviewed Dr. Gant’s report and did not note these purported deficiencies. Dr.
Belliveau, who reviewed Dr. Gant’s report in connection
with Mr. Ellis’s appeal, likewise did not identify comparable deficiencies in Dr. Gant’s report.
Next, Mr. Ellis argues that Liberty’s reliance on Dr.
Gant’s report was arbitrary and capricious because Dr.
Gant did not review Dr. Helffenstein’s raw data. That Dr.
Gant’s evaluation was meant to be independent undermines this argument. Since Dr. Gant expressed a
willingness to review this data, it may have nonetheless
been preferable for Liberty to provide it to him but its failure to do so was not unreasonable particularly since Dr.
Helffenstein’s raw data was provided to Drs. Crouch and
Belliveau who, unlike Dr. Gant, did not have the benefit of
their own firsthand observations or conduct their own
testing of Mr. Ellis.
Mr. Ellis also argues that Dr. Gant’s report fails to reconcile his own observations of Mr. Ellis with his conclusion
that there was insufficient evidence that Mr. Ellis suffered
from a cognitive impairment. Dr. Gant’s ultimately concluded that Mr. Ellis “displayed evidence of symptom
exaggeration and poor effort” during his evaluation. Doc
# 39-9, p. 22. While Mr. Ellis clearly disagrees with this
conclusion, it is obvious that Dr. Gant attached greater
significance to the results of symptom validity tests administered to Mr. Ellis than to his observations, and no
further explanation was warranted.
Mr. Ellis faults Dr. Gant, and more generally Liberty,
for ignoring “voluminous” evidence from his treating physicians and therapists. However, Drs. Gant, Crouch,
Wager, and Belliveau all discuss Mr. Ellis’s medical records at some length. This consideration of his medical
records contradicts Mr. Ellis’s attempt to characterize

-App. 76aLiberty’s treatment of the evidence in this case as
“cherry-picking.” Under ERISA, Liberty was not required to accord special weight to the opinions of Mr.
Ellis’s treatment providers nor did it bear the burden of
explaining why it credited other reliable evidence that arguably conflicted with these opinions. Black & Decker
Disability Plan v. Nord, 538 U.S. 822, 834 (2003). In many
cases, however, the records simply reflect Mr. Ellis’s subjective reporting of his condition. See e.g. Doc # 35-13, p.
1038. For all of these reasons, I find no reversible error in
Liberty’s treatment of the records from Mr. Ellis’s treating physicians and therapists.
Mr. Ellis also argues that Liberty’s review of its decision to terminate Mr. Ellis’s long term disability benefits
was arbitrary and capricious based on claims notes that
show little activity on Mr. Ellis’s claim other than referring it to Dr. Belliveau for review. In light of the detailed
letter Liberty sent regarding its review of Mr. Ellis’s
claim and the thorough report prepared by Dr. Belliveau,
there is no basis for me to conclude that Liberty failed to
give due consideration to Mr. Ellis’s appeal. The fact that
Dr. Belliveau is affiliated with Liberty does not alter this
conclusion. By the same token, it is noted that Dr. Helffenstein, on whose opinions Mr. Ellis repeatedly relies, was
retained by his counsel.
Turning to the substance of Liberty’s September 19,
2014 letter denying continued long term disability benefits, Mr. Ellis first asserts that Liberty mis- characterized
Dr. Gant’s otherwise flawed report. See Opening Brief, p.
77. The distinctions Mr. Ellis attempts to make between
Liberty’s characterization of Dr. Gant’s report and the report itself, however, are inconsequential; the fact remains
that Dr. Gant disputed the results of Dr. Helffenstein’s
first neuropsychological evaluation of Mr. Ellis and

-App. 77aquestioned whether Mr. Ellis suffered from any cognitive
impairment.
Next, Mr. Ellis challenges Liberty’s purported failure
to account for Mr. Ellis’s abnormal SPECT study as evidenced in its letter denying Mr. Ellis’s appeal. Liberty
accurately summarized the conclusions of this study, including its statement that “[h]owever, [Dr. Hipskind]
noted that correlation with [Mr. Ellis’s] entire medical history is advised.” Mr. Ellis argues that the advised
correlation was provided by Dr. Helffenstein and his brief
in this appeal. However, as also referenced in Liberty’s
September 2014 letter, Dr. Belliveau opined that the scientific studies supportive of SPECT studies related to
evaluating dementia or brain injury to trauma and may
not be applicable to evaluating brain injury due to hypoxic-ischemic events and that neuropsychological
evaluations were a more direct way to assess functional
status. Doc # 33-4, p. 7. Although Mr. Ellis takes issue
with this opinion, his unsupported argument fails to
demonstrate that it is categorically unreasonable. While
Dr. Belliveau went on to say that he would defer to a consulting neurologist or radiologist’s analysis if there was a
need for further review of the SPECT study, Liberty’s
failure to seek further review of the study, while arguably
preferable, was not arbitrary and capricious in light of the
neuropsychological evaluations available to it.
Mr. Ellis argues that another portion of Dr. Belliveau’s
report cited by Liberty is confusing and/or irrelevant. See
Opening Brief, p. 80. This argument has merit yet the
quoted language has little significance in the context of
Liberty’s ultimate decision on Mr. Ellis’s claim for continued long term disability benefits.
Indeed, Mr. Ellis identifies other conclusions in Dr.
Belliveau’s report concerning validity test results as “the

-App. 78aopinion that is at the crux of the case:” See Opening Brief,
p. 81. Liberty accurately summarized this conclusion as
follows:
The reviewer notes that Mr. Ellis passed
the tests for validity in the 2014 exam with
relatively lower sensitivity; but, he had previously failed the tests with relative higher
sensitivity during the 2012 and 2013 exams;
and his passing on the performance of the
most sensitive cognitive performance validity test in 2012, is actually a failure by
current test interpretation standards.
Doc # 33-2, p. 25. See also Doc # 33-3, pp. 17-19.
Mr. Ellis argues Dr. Belliveau’s did not adequately explain his conclusion regarding Mr. Ellis’s performance on
the most sensitive validity test administered in 2012, i.e.,
the Word Memory Test (“WMT”), but this argument does
not warrant a finding that Liberty acted unreasonably in
relying on this expert conclusion which was supported by
some explanation though not to the degree propounded by
Mr. Elis. Additionally, Dr. Gant similarly concluded that
Dr. Helffenstein did not appear to utilize the most current
version of tests to assess issues of secondary gain and poor
effort. Doc # 34-10, p. 3. Mr. Ellis continues to focus on
the WMT throughout the remainder of his argument
about Dr. Bellivau’s validity testing conclusions when in
fact Mr. Ellis had invalid results on other tests in 2013 and
showed signs of symptom over-reporting/exaggeration in
2012 and 2013. Doc # 33-3, pp. 13, 15-16.
Mr. Ellis also argues that Liberty’s denial letter
demonstrates that it acted unreasonably because of its reliance on the TSA/VR to demonstrate Mr. Ellis’s work
capabilities when this analysis did not consider any cognitive impairments or restrictions. This approach, however,

-App. 79ais entirely consistent with Liberty’s position that Mr. Ellis
did have a demonstrable cognitive impairment that affected his ability to perform full time sedentary work.
Lastly, Mr. Ellis argues that Liberty acted unreasonably in failing to consider the SSA’s determination that he
was disabled and entitled to benefits. The relevant evidence in the record does not allow for my review of the
context of or basis for the SSA’s determination of disability. See Doc # 33-12, pp. 9 & 11-15 & Doc # 34-8, pp. 1318. There is therefore no basis for me to conclude that Liberty’s contrary determination was arbitrary and
capricious or to reject Liberty’s assertion that its decision
to terminate Mr. Ellis’s may well have been based on information not available to the SSA at the time of its
decision.
While reasonable minds might differ on the question of Mr. Ellis’s entitlement to continued long term
disability benefits under the Policy, I conclude that the decision by Liberty to terminate those benefits it is not
subject to reversal under the arbitrary and capricious
standard of review applicable here even after taking Liberty’s conflict of interest is taken into account. See Nance
v. Sun Life Assur. Co. of Canada, 294 F.3d 1263, 1269
(10th Cir. 2002) (arbitrary and capricious standard is “a
difficult one for a claimant to overcome”). It is not surprising that in a 90 page brief Mr. Ellis was able to identify
some issues with Liberty’s handling of his claim for continued long term disability benefits. However, based on
the record before me, these issues, viewed both separately
and cumulatively, do not render Liberty’s ultimate decision to deny Mr. Ellis continuing long term disability
benefits under the Policy’s “Any Occupation” provision
unreasonable.

-App. 80aIV.
Conclusion
For the reasons set forth above, IT IS HEREBY ORDERED that judgment is entered in favor of Liberty, and
this case is DISMISSED WITH PREJUDICE.
Dated: September 18 , 2018.
BY THE COURT:
s/Lewis T. Babcock
Lewis T. Babcock,
bJudge

